     U.S. DEPARTMENT OF LABOR
   OFFICE OF INSPECTOR GENERAL
  CHICAGO REGIONAL AUDIT OFFICE



SCHOOL-TO-WORK OPPORTUNITIES PROGRAM
            IN MARYLAND

 PERFORMANCE AUDIT -- SYSTEM SUSTAINABILITY

        MARYLAND STATE
    DEPARTMENT OF EDUCATION
  DEVELOPMENT/IMPLEMENTATION GRANT
             NO. U-4442-4-00-88-60
FEBRUARY 25, 1994 THROUGH SEPTEMBER 5, 1997




                         REPORT NO.: 05-98-001-03-385
                         DATE: FEB 5, 1998
                           TABLE OF CONTENTS


ACRONYMS/ABBREVIATIONS                                                    iii

EXECUTIVE SUMMARY                                                         v

REPORT PRESENTATION OVERVIEW                                              1

SECTION I — RESULTS OF AUDIT                                              2

     CHAPTER 1 — INTRODUCTION:

     Federal School-to-Work Background                                    3
     Maryland’s School Reform Background                                  3
     School-to-Work Background in Maryland                                6
     Principal Criteria:
            Elements of Sustainability                                     7
            School-to-Work Opportunities Act of 1994                       8
     Objective, Scope, and Methodology                                    12

     CHAPTER 2 — FINDINGS AND RECOMMENDATIONS:

     1.    MSDE DCTAL Organization Function Statements and
           Position Descriptions Do Not Emphasize Career Connections      13
     2.    Future Funding Plans Are Not in Place for the Collection of
           Career Connections Student Performance Measures Data and the
           Continuation of the Employer Incentive Funds                   15
     3.    Student Participation in Career Connections Is Not a
           Graduation Requirement                                         19
     4.    State Certification Requirements for Teachers and Guidance
           Counselors Lack Mandatory Career Connections Training          21
     5.    Skill Certificates/Portable Credentials Are Not Finalized      23
     6.    The Overall Career Connections Marketing Strategy Is Not
           Firmly Targeted Towards Employers                              25

SECTION II — SUSTAINABILITY                                               27

     CHAPTER 1 — LEGISLATION/POLICIES                                     28

     CHAPTER 2 — GOVERNANCE                                               32

     CHAPTER 3 — PERFORMANCE INDICATORS                                   37


                                                                          PAGE i
                   TABLE OF CONTENTS (continued)


SECTION II — SUSTAINABILITY (continued):

     CHAPTER 4 — INCORPORATION OF OTHER PROGRAMS   40

     CHAPTER 5 — LEVERAGED FUNDS                   42

     CHAPTER 6 — INVOLVEMENT OF STAKEHOLDERS       44

     CHAPTER 7 — SYSTEM ROLL-OUT TO REGIONAL AND
                   LOCAL PARTNERSHIPS              49

     CHAPTER 8 — INCENTIVE/REWARD STRUCTURE        52

     CHAPTER 9 — CERTIFICATION OF TEACHERS/
                   GUIDANCE COUNSELORS             56

     CHAPTER 10 — SKILL CERTIFICATES/
                    PORTABLE CREDENTIALS           58

     CHAPTER 11 — PUBLIC MESSAGE/OUTREACH          62

APPENDIX A
     MSDE RESPONSE TO DRAFT REPORT                 65




                                                   PAGE ii
          ACRONYMS/ABBREVIATIONS


The Act    School-to-Work Opportunities Act of 1994

CCSMT      Career Connections State Management Team

DACUM      Develop a Curriculum

DCTAL      Division of Career Technology and Adult Learning

DOED       U.S. Department of Education

DOL        U.S. Department of Labor

EIF        Employer Incentive Fund

ETA        Employment and Training Administration

FY         Fiscal Year

GWIB       Governor’s Workforce Investment Board

HSTW       High Schools That Work

IEAWG      Industry Education Advisory Work Groups

JTPA       Job Training Partnership Act

LLMT       Local Labor Market Team

MBRT       Maryland Business Roundtable for Education

MSDE       Maryland State Department of Education

MSPAP      Maryland School Performance Assessment Program

MSPP       Maryland School Performance Program

NSTWO      National School-to-Work Opportunities Office

OIG        Office of Inspector General



                                                          PAGE iii
              ACRONYMS/ABBREVIATIONS (continued)


PDS                 Professional Development School

Perkins Act         Carl D. Perkins Vocational and Applied Technology
                    Education Act

PTA                 Parent Teacher Association

The Report          Maryland School Performance Report

RFP                 Request for Proposal

STW                 School-to-Work

Tech Prep           Technical Preparation

V-TECS              Vocational-Technical Education Consortium of States




                                                                   PAGE iv
                                EXECUTIVE SUMMARY


The U.S. Department of Labor, Office of Inspector General (OIG) has completed a
performance audit of the School-to-Work (STW) Opportunities Development/
Implementation Grant awarded to the Maryland State Department of Education (MSDE)
for the period February 25, 1994 through September 5, 1997. The Implementation
Grant’s performance period is projected to be extended annually through
September 30, 2000.

The audit objective was to determine if Maryland has institutionalized the 11 elements that
the OIG and the National School-to-Work Opportunities Office believe are indicative of a
sustainable STW system. In Maryland, STW is known as Career Connections.

To answer the audit objective, we interviewed Maryland’s key state-level Career
Connections’ officials for each of the 11 sustainability elements and reviewed supporting
documentation that was provided by the key officials regarding each element.

Our audit disclosed that the MSDE and the Career Connections State Management
Team (CCSMT) have initiated numerous actions that, when fully implemented,
should ensure the sustainability of the Career Connections initiative in Maryland
after the STW Federal funding ceases. Some notable examples include the
establishment of major policies, strategies, and initiatives; the active participation of the
Governor and key stakeholder groups; and the establishment of matching requirements in
criteria for obtaining Career Connections Federal funding. (See Chapters 1 through 11 of
Section II.) However, as discussed in Section I, our audit identified the following
potential limitations where enhancements can be made:

       1.      The MSDE Division of Career Technology and Adult Learning (DCTAL)
               organizational function statements and the MSDE DCTAL position
               descriptions do not emphasize Career Connections.

       2.      Career Connections’ officials do not have future funding plans for the
               collection of performance measures data or the continuation of the
               Employer Incentive Funds.

       3.      Student participation in Career Connections is not a graduation
               requirement.

       4.      State certification requirements for teachers and guidance counselors lack
               mandatory Career Connections training.

       5.      Skill certificates/portable credentials are not finalized.


                                                                                    PAGE v
6.     The overall Career Connections marketing strategy is not firmly targeted
       towards employers.

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE, in conjunction with the Career Connections State Management Team
when applicable, to further strengthen the sustainability of the Career Connections
initiative by:

1.     enhancing the existing MSDE DCTAL organizational function statements
       to incorporate an emphasis on the Career Connections intent and activities;

2.     establishing MSDE DCTAL position descriptions that emphasize the
       successful implementation of the Career Connections initiative;

3.     establishing formal plans to leverage funds from other available resource
       streams for ensuring the continuation of the:

       a)      collection of Career Connections performance measures data, and

       b)      Employer Incentive Funds (EIF) at both the state-level and
               regional-level to entice employer participation until the system sells
               itself to the employers;

4.     emphasizing student participation in all Career Connections components as
       a graduation prerequisite;

5.     incorporating Career Connections training as a mandatory requirement for
       State certification of teachers and guidance counselors;

6.     developing and finalizing a student skills assessment policy that promotes
       standardized examination procedures authorized by the MSDE and
       administered by local schools for all occupational areas in which individual
       skill certificates will be designed to ensure the portability of the skill
       certificates; and

7.     enhancing the Career Connections marketing focus on informing and
       involving employers including mass mailings to the employers informing
       them about Career Connections and providing information on how to
       participate in Career Connections.

The MSDE and CCSMT officials generally concurred with our findings and have
initiated corrective action on our recommendations. The MSDE response is
included as Appendix A.


                                                                           PAGE vi
                           REPORT PRESENTATION OVERVIEW

This report has been prepared to address both potential limitations and planned practices
impacting the sustainability of the Maryland STW initiative. The following tables
summarize the presentation of our report and results of our audit. Table 1 provides an
overview of the report format. Table 2 lists each element of sustainability and any
associated findings addressing potential limitations.

                         TABLE 1 -- REPORT PRESENTATION OVERVIEW

  REPORT
 SECTIONS           CHAPTER(S)                                 DESCRIPTIONS

                                      This chapter starts with an overview of the Federal School-to-Work
                                      (STW) initiative and continues with background information on
                          1           both Maryland’s modern school reform and Maryland’s STW
                     (pp. 2-12)       initiative (entitled Career Connections). The chapter concludes
       I                              with the principal criteria used to conduct this audit as well as the
  (pp. 2-26)                          audit objective, scope, and methodology.

                                      This chapter presents potential limitations and recommendations
                          2           where enhancements can be made to further sustain the initiative.
                     (pp. 13-26)      MSDE’s response and our conclusion follow each recommendation.

      II                              The 11 chapters describe the specific results of our review for each
 (pp. 27-64)        1 through 11      element of sustainability.


         TABLE 2 -- AUDIT RESULTS FOR EACH ELEMENT OF SUSTAINABILITY

                          SECTION II                                    SECTION I
                      Sustainability Element                       Associated Finding No.

               1        Legislation/Policies                              No Finding

               2        Governance                                             1

               3        Performance Indicators                                 2

               4        Incorporation of Other Programs                   No Finding

               5        Leveraged Funds                                   No Finding

               6        Involvement of Stakeholders                            2

                        System Roll-out to Regional
               7        and Local Partnerships                            No Finding

               8        Incentive/Reward Structure                             3

                        Certification of Teachers
               9        and Guidance Counselors                                4

                        Skill Certificates/
               10       Portable Credentials                                   5

               11       Public Message/Outreach                                6
   SECTION I




RESULTS OF AUDIT




                   PAGE 2
                           CHAPTER 1 — INTRODUCTION


This chapter starts with an overview of the Federal School-to-Work (STW) initiative. The
chapter continues with background information on both Maryland’s modern school reform
and Maryland’s STW initiative (entitled Career Connections). The chapter concludes with
the principal criteria used to conduct this audit as well as the audit objective, scope, and
methodology.

Chapter 2 presents potential limitations and recommendations where enhancements can be
made to further strengthen the sustainability of Maryland’s STW system. The MSDE’s
comments and our conclusion follow each recommendation.

Section 2 reports the specific results of our review for each of the 11 elements of
sustainability.

FEDERAL SCHOOL-TO-WORK BACKGROUND

On May 4, 1994, President Clinton signed the School-to-Work Opportunities Act of 1994.
This law provides seed money to States and local partnerships of business, labor,
government, education, and community organizations to develop school-to-work systems.
It allows States and their partners to bring together efforts at education reform, worker
preparation, and economic development to create a system to prepare youth for the
high-skill, high-wage careers of today’s and tomorrow’s global economy.

The Secretaries of Education and Labor funded activities for the States through
Development Grants, to begin to create comprehensive statewide School-to-Work
Opportunities systems. The activities must lead to the development of a comprehensive
plan for the School-to-Work Opportunities system that addresses the common features,
includes the basic program components, and leads to the required outcomes described in
the purpose of the School-to-Work Opportunities system. State Implementation Grants
enable States to implement their plans for statewide School-to-Work Opportunities
systems that will offer young Americans access to programs designed to prepare them for
a first job in high-skill, high-wage careers, and for further education and training.

MARYLAND’S SCHOOL REFORM BACKGROUND

Modern school reform in Maryland began in the early 1970's in response to the growing
public perception that school performance had begun to slip and that schools were not
adequately preparing young people for productive adulthood.

The movement to ensure that teaching and learning of at least minimum competency in
basic skills resulted in a program known as “Project Basic.” Beginning in 1977, Project
Basic focused on basic skills and minimum competencies. It also established a level of

                                                                                      PAGE 3
minimum skills that all students would have to achieve in order to graduate. As a result, in
1980, the Maryland Functional Reading Test (first of the Project Basic tests) was
administered for the first time, followed by tests developed in math, writing, and
citizenship over the next 5 years. In 1983, the MSDE’s State Board of Education
approved a regulation that required students to pass these competency tests in order to
graduate. Beginning with the class of 1989, all students were required to pass all four of
the Project Basic tests.

In 1987, the Governor established the Commission on School Performance to study
education throughout the State and identify needed reforms. The Commission’s final
report, issued in 1989, set forth the guiding education reform principles along with
recommendations designed to fulfill them. The report presented a blueprint for
constructing a statewide school improvement framework with accountability as the
cornerstone. These recommendations began a new era in Maryland public education by
shifting its focus from input to output and included the establishment of a comprehensive
public accountability system with:

C      indicators of school performance;
C      an assessment and reporting system; and
C      standards for school, school system, and State performance.

The Commission’s recommendations were adopted by the Maryland State Board of
Education in December 1989 and provided the framework for Schools for Success, the
name for Maryland’s school reform initiative.

In 1990, the Maryland State Board of Education approved the development of the
Maryland School Performance Program (MSPP), which Maryland officials believe is the
cornerstone of Schools for Success. The MSPP is the principal instrument for public
accountability and implemented the Commission on School Performance’s
recommendations. The MSPP is an accountability system that assesses school
performance, measures school progress toward State standards, assists school
improvement efforts throughout the State, and intervenes in schools that do not show
improvement.

In 1991, the MSDE piloted the Maryland School Performance Assessment Program
(MSPAP) in grades three, five, and eight. The MSPAP is a testing component of the
MSPP and was designed to measure school performance rather than individual student
performance. In 1993, the MSPAP accountability standards were adopted by the
Maryland State Board of Education along with standards and procedures for State
intervention to reconstitute schools failing to progress toward the standards.

Since 1989, Maryland has also been working to implement the recommendations of the
Maryland Commission on Vocational-Technical Education. This Commission focused on
strategies to integrate and link academic and vocational education at secondary and

                                                                                  PAGE 4
post-secondary levels. Maryland officials believe that extensive work has been done to
integrate academic and vocational education across learning levels through changes in
curriculum, instruction, and assessment. New program approval requirements were
designed that required local educational agencies to align workplace, technical, and
academic skills with vocational education.

For example, in June 1993, the MSDE jointly developed the Vision and Plan for
Blended Instruction for the integration of academic and vocational education with
employers, secondary officials, and post-secondary officials. Maryland officials believe
that implementation is under way and will create a system where all students are
challenged to higher academic achievement through instruction which blends theory and
application. The key practices and strategies outlined in the plan have become
components of technical preparation programs. (See page 40 for a description.) Another
initiative that came into existence as a result of the Commission of Vocational-Technical
Education’s report was the Career Development Model. (See pages 30 and 31 for more
information.) A new system of performance standards supportive of integration has also
been implemented in concert with the MSPP.

Maryland’s Schools for Success initiatives provided the foundation for the development of
the first year planning process as reflected in the State’s application for the Goals 2000
planning grant submitted to the U.S. Department of Education in August 1994. Goals
2000 and School-to-Work are closely linked in substantive ways: both advocate high
academic and occupational skill standards and both contain systemic reform as an inherent
part of their implementation. Schools for Success and Goals 2000 were linked as a result
of a 54 member panel, entitled The Schools for Success/Goals 2000 Panel, appointed by
the Governor and the Superintendent of Schools. The formation of this panel was a key
factor in initiating both the planning process detailed in the first year Goals 2000 grant
application and the involvement of public and private stakeholders in the school reform
process. The panel’s charge was to develop a comprehensive and systemic State
improvement plan which supported and sustained State and local improvement efforts
aimed at helping all students reach challenging academic standards. This State
improvement plan became the Schools for Success/Goals 2000 Plan which Maryland
officials believe will provide the foundation for creating ongoing strategies, processes, and
commitments for continuing and sustaining reform in the State.

Educational reform initiatives that are already under way will be expanded with Career
Connections in order to build a comprehensive school-to-careers system. Maryland
officials believe that Career Connections is an approach to be used to enhance the entire
existing educational experience for all students. Career Connections must blend
work-based learning activities, techniques, and standards into schooling so that the results
will include an enhanced curriculum and improved student performance.




                                                                                    PAGE 5
Systemic reform, including linkages to school improvement and the Goals 2000 Plan, is
essential per Maryland officials. These officials also believe that Career Connections must
be a means of uniting schools and employers so that each play a part in helping students
learn how to plan for and deal with life transitions and the world of work. They also
believe that Career Connections is the means by which the Maryland educational
experience can and will be improved and enriched so that all students benefit and the
State’s business community prospers.

SCHOOL-TO-WORK BACKGROUND IN MARYLAND

Maryland has incorporated the School-to-Work goals into its Career Connections
initiative. Career Connections is Maryland’s initiative to create a comprehensive school-
to-careers system and is an important part of the State’s Goals 2000/Schools for Success
long-term plan. Career Connections supports school reform, workforce preparation, and
economic development. When fully implemented, Career Connections will:

C      provide a comprehensive system for career development from kindergarten
       through adult learning; and

C      prepare students for entry into high-skill/high-wage careers, further education, and
       lifelong learning.

Each student is to participate in a challenging program of study which is to take place in
both school and work settings in order to blend academic, and work-related life skills and
attitudes. The primary aim of Career Connections is for all high school students to
graduate prepared to enter a career and/or higher education.

Maryland has established a three-tiered governance structure for Career Connections. At
the state-level, the Career Connections State Management Team (CCSMT) has been
established to provide overall policy guidance and management. The CCSMT is
comprised of officials from State agencies, education, business, organized labor, and local
communities. At the regional-level, 12 Local Labor Market Teams (LLMT), that coincide
with Maryland’s Job Training Partnership Act (JTPA) Service Delivery Areas, provide
leadership and general administration. At the local-level, existing school improvement
teams will implement Career Connections.

The Maryland State Department of Education (MSDE) is the designated fiscal agent for
Maryland’s School-to-Work Development/Implementation Grant. The U.S. Department
of Labor (DOL), Employment and Training Administration (ETA) awarded a State
Development Grant to the MSDE on February 25, 1994, for 9 months from the execution
date (through November 24, 1994), in the amount of $280,000. Effective November 25,
1994, Modification No. 1 provided additional funding of $248,888 and extended the
grant’s period of performance through June 30, 1995. Modification No. 2, effective

                                                                                  PAGE 6
June 30, 1995, further extended the grant’s period of performance through September 30,
1995.

Effective September 30, 1995, Modification No. 3:

!      modified the grant’s statement of work from planning and development efforts to
       implementation of a School-to-Work system;

!      provided additional funding of $4,200,000; and

!      further extended the grant’s period of performance through September 30, 1996.

Modification No. 4, effective September 30, 1996, provided additional funding of
$8,400,000 and further extended the period of performance through September 30, 1997.

Effective December 20, 1996, Modification No. 5 provided additional funding of $5,000
for a cumulative total of $13,133,888.

As part of the National School-to-Work Opportunities Office’s (NSTWO) 5-year
implementation grant funding cycle, Maryland’s Career Connections system is projected to
receive an additional $12,600,000 through annual grant modifications that should extend
the grant’s period of performance through September 30, 2000. Currently, Maryland is
transitioning into the 3rd year of the 5-year implementation grant performance period.

Initially, the National DOL-ETA Office was tasked with grant oversight. However, in
September 1995, the oversight responsibilities were transferred to the NSTWO.

PRINCIPAL CRITERIA

Public Law 103-239, School-to-Work Opportunities Act of 1994 (the Act), contains a
sunset provision that mandates the cessation of Federal funding on October 1, 2001. The
Act provides seed money to develop and implement school-to-work systems. One of the
provisions requires Federal funds under this Act to be used as venture capital, to
underwrite the initial costs of planning and establishing statewide STW systems that will
be maintained with other Federal, state, and local resources.

Therefore, the Federal seed money must be devoted towards the establishment of an
infrastructure that will maintain the STW system when Federal STW funding ceases.

Elements of Sustainability

In April 1997, officials from the U.S. Department of Education, Office of Inspector
General (DOED-OIG), the U.S. Department of Labor, Office of Inspector General


                                                                                 PAGE 7
(DOL-OIG) and the NSTWO met to formulate an audit strategy that would result in
providing added value to the NSTWO’s current program management strategy. The
ability of the STW initiative to continue after the expiration of the STW grants was a
major area of concern expressed by the NSTWO officials. As a result, officials from
DOED-OIG, DOL-OIG, and the NSTWO agreed to the following 11 elements that are
considered to be indicative of a sustainable STW system:

       (1) Legislation/Policies
       (2) Governance
       (3) Performance Indicators
       (4) Incorporation of Other Programs
       (5) Leveraged Funds
       (6) Involvement of Stakeholders
       (7) System Roll-out to Regional and Local Partnerships
       (8) Incentive/Reward Structure
       (9) Certification of Teachers/Guidance Counselors
       (10) Skill Certificates/Portable Credentials
       (11) Public Message/Outreach.

School-to-Work Opportunities Act of 1994

We believe that the above elements are embraced in Section 213(d) of the Act, which
specifies what must be included in a State implementation plan. Those relevant
subsections of Section 213(d) are included below. Following each of the numbered
subsections to Section 213(d), we have added in bold and enclosed in brackets the related
system elements that we believe are embraced by the subsection.

A State plan shall:

       (2) describe the manner in which the State will stimulate and support local
       School-to-Work Opportunities programs and the manner in which the statewide
       School-to-Work Opportunities system will be expanded over time to cover all
       geographic areas in the State, including urban and rural areas; [involvement of
       stakeholders; system roll-out to regional and local partnerships;
       incentive/reward structure; and public message/outreach]

       (3) describe the procedure by which individuals and entities described in
       subsection (b)(4) (such as Governor, State educational agency, State economic
       development officials, State employment officials, State job training officials, State
       post-secondary education officials, State vocational education officials, State
       vocational rehabilitation officials, State individual assigned under the
       Carl D. Perkins Act, other officials such as the human resource investment council,
       any private sector representatives that collaborated in the application development)


                                                                                   PAGE 8
will collaborate in the implementation of the School-to-Work Opportunities
system; [legislation/policies; governance; and involvement of stakeholders
(state-level)]

(4) demonstrate the support of individuals and entities described in
subsection (b) (4), subparagraphs (A) through (J) (such as Governor, State
educational agency, State economic development officials, State employment
officials, State job training officials, State post-secondary education officials, State
vocational education officials, State vocational rehabilitation officials, State
individual assigned under the Carl D. Perkins Act, and other officials such as the
human resource investment council) for the plan, except in the case where the
Governor is unable to obtain the support of such individuals and entities as
provided in subsection (a) (2); [governance and involvement of stakeholders
(state-level)]

(5) describe the manner in which the State has obtained and will continue to
obtain the active and continued involvement, in the statewide School-to-Work
Opportunities system, of employers and other interested parties such as locally
elected officials, secondary schools and post-secondary educational institutions
(or related agencies), business associations, industrial extension centers,
employees, labor organizations or associations of such organizations, teachers,
related services personnel, students, parents, community-based organizations,
rehabilitation agencies and organizations, registered apprenticeship agencies, local
vocational educational agencies, vocational student organizations, State or
regional cooperative education associations, and human service agencies;
[involvement of stakeholders; incentive/reward structure; and public
message/outreach]

(6) describe the manner in which the statewide School-to-Work Opportunities
system will coordinate with or integrate local school-to-work programs in
existence on or after the date of the enactment of this Act, including programs
financed from State and private sources, with funds available from such related
Federal programs as programs under the Adult Education Act; the Carl D. Perkins
Act; the Elementary and Secondary Education Act of 1965; the Higher Education
Act of 1965, part F of Title IV of the Social Security Act, Goals 2000: Educate
America Act, the National Skills Standard Act of 1994, the Individuals with
Disabilities Education Act, the Job Training Partnership Act, the National
Apprenticeship Act (1937), the Rehabilitation Act of 1973, and the National and
Community Service Act of 1990; [incorporation of other programs and
leveraged funds]

(7) describe the strategy of the State for providing training for teachers,
employers, mentors, counselors, related services personnel, and others, including
specialized training and technical support for the counseling and training of

                                                                               PAGE 9
women, minorities, and individuals with disabilities for high-skill, high-wage
careers in nontraditional employment, and provide assurances of coordination with
similar training and technical support under other provisions of law;
[legislation/policies; involvement of stakeholders; and certification of
teachers/guidance counselors]

(8) describe how the State will adopt, develop, or assist local partnerships to
adopt or develop model curricula and innovative instructional methodologies, to be
used in the secondary, and where possible, the elementary grades, that integrate
academic and vocational learning and promote career awareness, and that are
consistent with academic and skill standards established pursuant to the
Goals 2000: Educate America Act and the National Skills Standard Act of 1994;
[legislation/policies; system roll-out to regional and local partnerships; and
skill certificates/portable credentials]

(9) describe how the State will expand and improve career and academic
counseling in the elementary and secondary grades, which may include linkages to
career counseling and labor market information services outside of the school
system; [legislation/policies; incentive/reward structure; and certification of
teachers/guidance counselors]

(10) describe the State strategy for integrating academic and vocational education;
[legislation/policies and certification of teachers/guidance counselors]

(11) describe the resources, including private sector resources, the State intends
to employ in maintaining the statewide School-to-Work Opportunities system
when funds under this Act are no longer available; [leveraged funds]

(12) describe the extent to which the statewide School-to-Work Opportunities
system will include programs that will require paid high-quality, work-based
learning experiences, and the steps the State will take to generate such paid
experiences; [incorporation of other programs; involvement of stakeholders
(especially employers and students); and incentive/reward structure]

(13) describe the manner in which the State will ensure effective and meaningful
opportunities for all students in the State to participate in School-to-Work
Opportunities programs; [legislation/policies (indirect); involvement of
stakeholders (especially students); system roll-out to regional and local
partnerships; incentive/reward structure; and public message/outreach]

(14) describe the goals of the State and the methods the State will use, such as
awareness and outreach, to ensure opportunities for young women to participate in
School-to-Work Opportunities programs in a manner that leads to employment in
high-performance, high-paying jobs, including nontraditional employment, and

                                                                          PAGE 10
       goals to ensure an environment free from racial and sexual harassment;
       [involvement of stakeholders and public message/outreach]

       (15) describe how the State will ensure opportunities for low achieving students,
       students with disabilities, school dropouts, and academically talented students to
       participate in School-to-Work Opportunities programs; [legislation/policies;
       involvement of stakeholders; incentive/reward structure; and public
       message/outreach]

       (16) describe the process of the State for assessing the skills and knowledge
       required in career majors, and the process for awarding skill certificates that is, to
       the extent feasible, consistent with the skills standards certification systems
       endorsed under the National Skill Standards Act of 1994;
       [skill certificates/portable credentials]

       (18) describe the manner in which the State will, to the extent feasible, continue
       programs funded under title III in the statewide School-to-Work Opportunities
       system; [system roll-out to regional and local partnerships]

       (19) describe how the State will serve students from rural communities with low
       population densities; [involvement of stakeholders; system roll-out to regional
       and local partnerships; and public message/outreach]

       (20) describe how local School-to-Work Opportunities programs, including those
       funded under Title III, if any, will be integrated into the statewide School-to-Work
       Opportunities system; [system roll-out to regional and local partnerships]

       (21) describe the performance standards that the State intends to meet in
       establishing and carrying out the statewide School-to-Work Opportunities system,
       including how such standards relate to those performance standards established
       under other related programs; [performance indicators] and

       (23) describe the procedures to facilitate the entry of students participating in a
       School-to-Work Opportunities program into additional training or post-secondary
       education programs, as well as to facilitate the transfer of the students between
       education and training programs. [legislation/policies; incorporation of other
       programs; and incentive/reward structure (for students)]

In addition to the sustainability elements and the Act, we used the School-to-Work
Opportunities Program Grant No. U-4442-4-00-88-60 through Modification No. 5.




                                                                                    PAGE 11
                    OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of the audit was to determine if Maryland has institutionalized the elements
that are indicative of a sustainable School-to-Work system.

Scope

We performed a performance audit for the period February 25, 1994 through
September 5, 1997.

Methodology

For each of the sustainability elements, we interviewed Maryland’s key state-level Career
Connections’ officials and reviewed supporting documentation that was provided by the
key officials regarding each element.

Our audit was performed in accordance with Government Auditing Standards, as issued
by the Comptroller General of the United States.




                                                                                 PAGE 12
             CHAPTER 2 — FINDINGS AND RECOMMENDATIONS


We consider the following six items to be potential limitations to the sustainability of the
Maryland Career Connections initiative.

1.     MSDE DCTAL Organizational Function Statements and Position Descriptions Do
       Not Emphasize Career Connections

       The Maryland State Department of Education (MSDE) Division of Career
       Technology and Adult Learning (DCTAL) has taken the lead role within the
       MSDE to administer the Career Connections initiative. The DCTAL is tasked
       with providing leadership for integrating Career Connections into systemic reform
       initiatives within the MSDE. However, the DCTAL’s organizational function
       statements and position descriptions do not address the various goals/objectives of
       the Career Connections initiative. As a result, there is no assurance that the
       DCTAL staff will continue to provide the necessary leadership role to ensure the
       successful implementation of the Career Connections initiative.

       Organization Function Statements

       The MSDE DCTAL’s organizational function statements, effective July 1996, do
       not include any specific reference to the Career Connections system or
       School-to-Careers. These organizational function statements were prepared
       approximately 9 months after the MSDE received its School-to-Work
       Implementation Grant. We believe that the organizational function statements
       should address:

       C       the preparation of students for entry into high-skill/high-wage careers,
               further education, and lifelong learning;

       C       the development of a comprehensive system for career development from
               kindergarten through adult learning;

       C       the universal access for all students to receive the support services
               necessary to succeed in the careers they are preparing to enter; and

       C       the creation of a new learning enterprise developed jointly by community
               partners.

       We believe that the inclusion of these elements within the organizational function
       statements would strengthen the Career Connections emphasis within the DCTAL.




                                                                                   PAGE 13
Position Descriptions

We were provided one position description for the MSDE DCTAL Career
Connections Branch Chief, dated May 1995. This outdated position description
focused more on “career and technology education” than on Career Connections
or School-to-Careers. We were informed that position descriptions for the MSDE
DCTAL are being revised. We believe that the revised position descriptions
should include staff responsibilities that directly relate to the successful
implementation of the Career Connections initiative.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE to further strengthen the sustainability of the Maryland Career
Connections initiative by:

a)     modifying the existing MSDE DCTAL organizational function statements
       to incorporate an emphasis on the Career Connections intent and activities
       by addressing:

       C       the preparation of students for entry into high-skill/high-wage
               careers, further education, and lifelong learning;

       C       the development of a comprehensive system for career development
               from kindergarten through adult learning;

       C       the universal access for all students to receive the support services
               necessary to succeed in the careers they are preparing to enter; and

       C       the creation of a new learning enterprise developed jointly by
               community partners; and

b)     establishing MSDE DCTAL position descriptions that emphasize the
       successful implementation of the Career Connections initiative.

Grantee Response

The MSDE concurs with this finding. As MSDE DCTAL organizational and
function statements are updated, they will be modified to emphasize Career
Connections intent and activities. The MSDE is also sequentially revising position
descriptions for all staff to include responsibilities that directly relate to the
successful implementation of the Career Connections system.




                                                                          PAGE 14
     Auditor’s Conclusion

     We consider the initial corrective actions taken by the MSDE to be sufficient to
     resolve this finding. However, the finding cannot be closed until the Grant Officer
     has determined that corrective actions have been properly implemented.

2.   Future Funding Plans Are Not in Place for the Collection of Career Connections
     Student Performance Measures Data and the Continuation of the Employer
     Incentive Funds

     Career Connections officials are using STW Implementation Grant funds to gather
     student performance measures data and to finance Employer Incentive Funds
     (EIFs). However, Career Connections officials have not developed plans to
     leverage other funding sources to maintain the collection of Career Connections
     student performance measures data or the continuation of the EIFs.

     Career Connections Performance Measures Data

     Maryland’s Career Connections system includes three student outcome measures
     that involve student performance. These three Career Connections student
     performance measures are:

     !      Student Transition to Employment and/or Post-Secondary Education

            By the year 2000, the percentage of students who are employed and/or
            enrolled in post-secondary education within one year of high school
            graduation will at least equal the employment rate of the jurisdiction from
            which the students graduated.

     !      Performance in the Workforce Following Graduation

            By the year 2000, at least 95 percent of the students employed immediately
            following graduation will meet or exceed entry-level occupational skill
            requirements as reported by employers in followup surveys.

     !      Performance in College Following Graduation

            By the year 2000, the grade point average for Maryland high school
            graduates enrolled in a Maryland post-secondary institution will exceed
            2.5 based on a 4.0 scale during their freshman year as measured by the
            Student Outcome and Assessment Report.

     Section I.B.3 of Maryland’s Implementation Grant states that “Post-program
     outcome data--student and system data will be collected and analyzed beyond the

                                                                              PAGE 15
year 2000 to demonstrate student participation and attainment of outcomes in
accordance with Section 402 of the School-to-Work Opportunities Act. Results
will be published in State and local performance reports and SOAR [Student
Outcome and Assessment Report], and used by school improvement and local
teams to refine strategies to improve programs.”

Beginning with the base year of 1996, Maryland will begin collecting this data for
all 1996 high school graduates through surveys that will be conducted in
alternating years. The data is intended to provide post-graduate information on
employment and post-secondary status and success. Data will be summarized by
school, school system, and the State.

In order to obtain a more representative response from the graduating class, local
school districts must conduct telephone followups of students not returning their
survey forms in order to obtain a response rate over 70 percent. In addition to
following up on students, employers are also contacted to determine the skill level
of the graduates hired by these employers.

School districts will be paid to make the followup phone calls during survey years
(1996, 1998, and 2000) from STW Implementation Grant funds. An MSDE
official stated that no plans currently exist to fund the survey after STW Federal
funding ceases.

Employer Incentive Funds

Maryland officials have established a state-level and regional-level process for the
distribution of EIFs. Several million dollars of Maryland’s STW Implementation
Grant are being set aside for a state-level EIF and regional Local Labor Market
Team (LLMT)-level EIFs which provide an incentive for employers to participate
in Career Connections.

Maryland officials believe that incentives, that can absorb some of the up-front
costs of providing a quality work-based learning experience, are important in
engaging employers. The Career Connections State Management Team (CCSMT)
established EIFs at both the state-level and the regional-level (LLMTs) to
establish an incentive for employers to participate in the Career Connections
system.

State-level EIF

At the state-level, approximately $400,000 of Maryland’s first year
implementation funding was competitively awarded to nine industry specific
groups of employers, trade associations, and labor groups within four targeted
career cluster areas with potential growth and opportunity for high-skill, high-

                                                                          PAGE 16
wage careers. Maryland also set aside $800,000 of the second year
implementation funding for the state-level EIF.

The state-level EIF goals are to:

C      encourage strategic employer involvement in Career Connections;

C      develop replicable models of collaboration among employers;

C      expand career development opportunities for students in targeted industry
       clusters; and

C      stimulate the development of high level work-based learning
       opportunities.

State-level EIF funding is being made available to consortia of employers, business
organizations, chambers of commerce, trade organizations, professional
organizations, and organized labor groups that will work in concert with educators
in the nine career cluster areas identified by the State (see page 41).

Regional-level EIF

At the regional-level, the CCSMT requires all LLMTs to dedicate 25 percent of
their implementation grant funds to offer regional EIF grants. Further, grant
criteria require documentation of at least a 50 percent match for grant requests
from the regional EIFs.

Maryland’s 5-year estimated projections are to pass through $21 million of the
$25.2 million 5-year implementation grant to the LLMTs. Consequently, over
$5 million (25 percent of $21 million) is projected to be available for the regional
EIFs.

The regional EIF goals are to:

C      stimulate the strategic, ongoing involvement of employers in the
       local/regional school-to-careers system;

C      increase the number of high quality work-based learning opportunities
       integrated with school-based learning and related to career clusters;

C      develop a variety of employer partnerships that can be replicated within the
       region and across the state;




                                                                           PAGE 17
C      increase the participation of small employers in all aspects of implementing
       Maryland’s school-to-careers system; and

C      link the implementation of the school-to-careers system with local/regional
       economic development efforts.

Regional-level EIF funding is being made available to the following employer
groups through each of the 11 LLMTs: industry-specific consortia of businesses,
trade associations, labor organizations, general business organizations, and
individual employers (if no other logical industry partner exists).

We determined that no formal plan exists for continuation of the EIFs at either the
state-level or regional LLMT-level after the cessation of Federal STW grant
funding. An MSDE official stated that there is no assurance that employers will
participate in Career Connections in the absence of the EIFs.

Employers are critical stakeholders in any STW system. As stated in the readiness
criteria of the State Implementation Grant, linkages with employers are at the
heart of Career Connections. Employers need to be full partners in the
development, implementation, and maintenance of Career Connections.
Consequently, if employers do not continue to fully participate, then Career
Connections will not function in accordance with the School-to-Work
Opportunities Act of 1994.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE, in conjunction with CCSMT, to further strengthen the sustainability of
the Maryland Career Connections initiative by establishing formal plans to
leverage funds from other available resource streams for ensuring the continuation
of the:

a)     collection of Career Connections student performance measures data as
       required by the grant; and

b)     EIFs at both the state-level and regional-level to entice employer
       participation until the system sells itself to the employers.

Grantee Response

The MSDE and the CCSMT concur with this finding. The MSDE is already
pursuing alternate strategies to collect student data using the unemployment
insurance data base. Should these prove to be viable, it would negate the need to
identify other resources to supplement the current data collection system. In

                                                                            PAGE 18
     addition, the MSDE will develop plans to leverage other funding sources to
     maintain, if necessary, the current collection methodology of appropriate student
     performance measures data after the Federal STW funding ceases. The MSDE, in
     conjunction with the CCSMT, is also beginning to formulate recommendations
     and formal plans to leverage other funds to ensure the continuation of the EIF
     funds when Federal STW funding ceases.

     Auditor’s Conclusion

     We consider the initial corrective actions taken by the MSDE to be sufficient to
     resolve this finding. However, the finding cannot be closed until the Grant Officer
     has determined that corrective actions have been properly implemented.

3.   Student Participation in Career Connections Is Not a Graduation Requirement

     The Schools for Success/Goals 2000 plan identified an area of particular concern
     in that STW systems be designed to engage all students in career planning and
     preparation, and that systematic approaches be developed to ensure participation,
     not just access, for all students. The readiness criteria of the State Implementation
     Grant states in part “The high school experience needs to include an
     ever-increasing exposure to what life following high school demands . . . this
     exposure may be structured around jobs and other experiences that the student
     would take part in . . . a commitment to provide a significant array of workplace
     learning experiences for all students (emphasis added) is the critical element.”

     Maryland officials believe that the commitment to integrate workplace and higher
     education experiences for all students is the single largest structural change for
     Maryland’s schools. The MSDE’s State Board of Education sets the standards for
     high school graduation requirements. However, we were informed that students
     are not required to participate in Career Connections as a graduation prerequisite.
     Instead, the State Board of Education only requires each student to select either an
     academic pathway, an occupational pathway, or both.

     We believe the Maryland State Board of Education should emphasize student
     participation in all Career Connections components (school-based learning, work-
     based learning, and connecting activities) as a high school graduation prerequisite
     for every student.

     Recommendation

     We recommend that the Assistant Secretary for Employment and Training instruct
     the MSDE to further strengthen the sustainability of the Maryland Career




                                                                                PAGE 19
Connections initiative by emphasizing student participation in all Career
Connections components as a graduation prerequisite as envisioned in the
Schools for Success/Goals 2000 plan.

Grantee Response

The MSDE’s position is that LLMTs are restructuring high schools and their
feeder schools to integrate the components of the school-to-careers system in
curriculum, instruction, and assessment. As such, every student that attends these
schools participates in Career Connections. LLMTs are also aligning their course
sequences along career cluster pathways to ensure that all students participate in
school-to-career activities.

Further, the State Board revised graduation requirements in 1992 to include a
service learning requirement for every student prior to graduation. Service
learning is an integral part of the Career Connections continuum of work-based
learning opportunities and requires students to reflect on their experiences in
relation to their school-based learning. Connecting activities occur that engage
students in their broader communities through their service learning experiences.

Past practice in Maryland has been to implement changes through local school
improvement planning efforts linked to performance measures and standards rather
than through “top down” process mandates, legislation, or other state-imposed
requirements. However, the MSDE will continue to examine ways in which the
high school graduation requirements can be used as a means to strengthen the
sustainability of Career Connections by emphasizing student participation in Career
Connections.

Auditor’s Conclusion

Although we agree that Maryland has initiated activities that will eventually lead to
all students participating in all Career Connections components, we believe that
emphasis generated directly from the State Board can expedite the process of
institutionalizing student participation in all Career Connections components
within the Maryland education system. The State Board has general control and
supervision over public schools and the educational interests of the State. It sets
policy for the administration of the public school system by adopting bylaws and
regulations which have the force of law. The Board also sets the standards for
requirements to graduate from high school. If local school districts do not comply
with State standards, the Board may recommend that State funds be withheld from
those districts. Consequently, the State Board has direct control and leadership




                                                                          PAGE 20
     responsibilities over changes within the Maryland education system and is
     in the unique position to accelerate these changes through policy
     implementation. As a result, our overall recommendation remains
     unchanged.

     We consider the finding to be unresolved.

4.   State Certification Requirements for Teachers and Guidance Counselors Lack
     Mandatory Career Connections Training

     Maryland officials believe that the commitment to integrate workplace and higher
     education experiences for all students is the single largest structural change for
     Maryland’s schools. However, no standardized requirements are in place to
     ensure that teachers and guidance counselors receive Career Connections training
     as part of the State’s certification process of teachers and guidance counselors.

     As of July 1, 1997, we were informed by MSDE officials that the State Board of
     Education does not require Career Connections training as a prerequisite to
     certification or renewed certification to teach in Maryland. Rather, it is MSDE’s
     position that incentives and quality professional development offerings motivate
     teacher interest to participate in state-level training. Therefore, it is MSDE’s
     position that if Career Connections becomes ingrained in the various school
     systems, teachers and administrators will know that they need Career Connections-
     related training even though it is not required.

     We believe that Maryland has initiated a number of significant school reform
     initiatives. However, in order for these initiatives to be successful, teachers will
     need to understand and contribute to them. Teachers entering school familiar with
     and committed to these reforms will contribute immeasurably to the process and
     success of the reform effort. Therefore, we believe that it is necessary for teacher
     preparation to be linked to school reform. We also believe that the incorporating
     of specific Career Connections requirements as a prerequisite to certification and
     renewed certification to teach is a desired way to ensure that all teachers are
     properly trained. Moreover, our opinion is supported by Maryland’s
     Implementation Grant Application, dated June 1995, page 7, Introduction of
     work-based instructional strategies into the State’s teacher education and
     credentialing process, which states in part,

            . . .currently, the State’s teacher credentialing process does not include
            requirements to support Career Connections. In the long term, the only
            way to ensure institutionalization of a Career Connections system is to
            make certain that teachers are properly trained and certified as having the
            skills needed to use work-based approaches in the development and
            delivery of courses. . . .

                                                                               PAGE 21
Further, the readiness criteria of the State Implementation Grant states that,
“Guidance counselors will need professional development. . . .”

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE to further strengthen the sustainability of the Maryland Career
Connections initiative by incorporating Career Connections training as a
mandatory requirement for State certification of teachers and guidance counselors
to make certain that they are properly trained and certified as having the necessary
skills.

Grantee Response

The MSDE and the CCSMT do not concur with this finding. Maryland
administrators take a conservative approach to establishing mandatory
requirements for State certification of teachers and guidance counselors. Once
established, required courses or in-service workshops must be readily available to
ensure that no teacher is denied certification or recertification based on the lack of
availability of mandatory course work. Maryland hires a large percentage of its
teachers from other states and these teachers with reciprocity would not be subject
to this requirement if made mandatory. Establishing mandatory training for State
certification of teachers and guidance counselors is not a specified requirement in
the School-to-Work Opportunities Act.

Maryland’s approach will be to continue to provide state and local school-to-
careers institutes, blended instruction workshops, professional development school
grants, career development training, and worksite supervisor training. Maryland
will continue to offer in-service credits for teacher participation in Career
Connections professional development opportunities and market these
opportunities to teachers and administrators as effective approaches to improving
student achievement.

Auditor’s Conclusion

Although we agree that Maryland has provided teachers access to Career
Connections-related training opportunities, we believe that emphasis generated
directly from the State Board can expedite the process of institutionalizing Career
Connections into the educator preservice and in-service training systems. The
State Board has general control and supervision over public schools and the
educational interests of the State. It sets policy for the administration of the public
school system by adopting bylaws and regulations which have the force of law.
The Board also sets the standards for certification of teachers and other

                                                                            PAGE 22
     professional personnel. If local school districts do not comply with State
     standards, the Board may recommend that State funds be withheld from those
     districts. Consequently, the State Board has direct control and leadership
     responsibilities over changes within the Maryland education system. In the long-
     term, the only way to ensure institutionalization of a Career Connections system is
     to make certain that teachers and guidance counselors are properly trained and
     certified as having the skills needed. The State Board is in the unique position to
     accelerate these changes through policy implementation. As a result, our overall
     recommendation remains unchanged. We do realize that educator certification
     policy changes cannot be mandated until the Career Connections training system
     has been completely implemented. However, the State Board policy can be
     initiated.

     We consider this finding to be unresolved.

5.   Skill Certificates/Portable Credentials Are Not Finalized

     As stated in the State’s Implementation Grant, a major component of Career
     Connections will include an effective process for assessing students’ skills and
     knowledge in relation to Maryland’s career cluster areas which will eventually lead
     to the issuance of individual skill certificates. However, the skill
     certificate/portable credential and assessment process is still being developed.
     Consequently, it is not always possible to determine if employers and post-
     secondary institutions are recognizing the Career Connections system or if this
     system is producing quality new hires and/or college students.

     Maryland officials are involved in two initiatives that will eventually lead to the
     issuance of skill certificates to individual students. One initiative involves 16 states
     and is entitled Building Linkages in Manufacturing while the other initiative is
     progressing within Maryland and involves developing performance specifications
     for certain occupational areas.

     A feasibility study will be conducted within the next year to determine how best to
     implement skill certificates. Maryland’s portable credential system will not always
     be occupation-specific but will be for an occupational area. Performance
     specifications have been developed for 20 career majors that align with Maryland’s
     nine career clusters and high demand occupations. We believe that Maryland has
     initiated actions necessary to ensure that individual skill certificates will be issued
     to each student.

     However, Maryland officials have yet to initiate actions necessary to ensure that
     skill certificates will be portable. Maryland’s Implementation Grant, Student
     Assessment, states in part,


                                                                                  PAGE 23
        . . . portable skill certificates will be issued that are benchmarked to high
       quality standards under the Maryland’s Goals 2000 plan and the
       voluntary national skill standards. . . .

Maryland officials are exploring two different methods for assessing students’
competencies for a particular career cluster major that will be reflected in the skill
certificates:

       Method 1

       The student’s portfolio at graduation could itself serve as a type of
       credential. The portfolio would include a copy of the student’s transcript,
       a resume, letters of reference, and documentation demonstrating
       competency in areas covered by the performance specifications for the
       vocational program(s) of study. Many of Maryland’s students already
       graduate with career portfolios that document their accomplishments for
       presentation to employers and higher education representatives. By the
       year 2000, all students will be required to have career portfolios in
       Maryland.

       Method 2

       An assessment would be accomplished by means of standardized
       examination procedures authorized by the MSDE and administered by local
       schools.

We believe that the second assessment method would result in portable
credentials that are more commonly recognized and accepted by employers and
higher education institutions throughout the State. Students may not always
possess the same technical skills due to differences in training and assessment
techniques at different schools/districts. By passing a standardized assessment
exam, students from different geographical areas will have assured employers and
post-secondary institutions that they possess standard knowledge in a certain
occupational area. Passing a standardized assessment exam would prove what
skills a student possesses versus a portfolio which documents the student’s
instructional activities.

Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE, in conjunction with the CCSMT, to further strengthen the
sustainability of the Career Connections initiative by developing and finalizing a
student skills assessment policy that promotes standardized examination
procedures to ensure the portability of the skill certificates.

                                                                             PAGE 24
     Grantee Response

     The MSDE and the CCSMT concur with this finding. Plans are being formulated
     to move forward with the establishment of the student skills assessment policy in
     concert with Maryland’s high school improvement initiative that will require
     students to pass high school assessments as a prerequisite to graduation.

     Auditor’s Conclusion

     We consider the initial corrective action taken by the MSDE to be sufficient to
     resolve this finding. However, the finding cannot be closed until the Grant Officer
     has determined that corrective actions have been properly implemented.

6.   The Overall Career Connections Marketing Strategy Is Not Firmly Targeted
     Towards Employers

     Employers are critical stakeholders in any STW system. As stated in the readiness
     criteria of the State Implementation Grant, linkages with employers are at the heart
     of Career Connections. However, the CCSMT has used a limited marketing
     strategy to involve employers in Career Connections. Consequently, if employers
     do not fully participate in work-based learning, then Career Connections will not
     function in accordance with the School-to-Work Opportunities Act of 1994.

     The Career Connections Employer Participation Strategy “fact sheet” published by
     the CCSMT stresses that since the provision of work-based learning is an essential
     component of the Career Connections process, the role of employers is vastly
     expanded and extraordinarily critical. However, when asked if marketing had
     reached all stakeholders, one MSDE official stated absolutely not. The official
     continued that the initial marketing focus was parents and teachers. Maryland
     made a strategic decision early in the marketing process where they decided not to
     market “employer-to-employer.” Instead, Maryland targeted corporations,
     employer associations, and membership groups for the marketing of Career
     Connections, not individual employers.

     One official stated that the MSDE had not explored the strategy of obtaining
     employers’ mailing addresses from Maryland’s Department of Labor, Licensing,
     and Regulation/Division of Employment and Training. We believe that by
     obtaining employers’ mailing addresses, the CCSMT could specifically target
     employers and initiate mass mailings to employers informing them about Career
     Connections and providing information on how to participate in Career
     Connections.

                                                                              PAGE 25
Recommendation

We recommend that the Assistant Secretary for Employment and Training instruct
the MSDE, in conjunction with the CCSMT, to further strengthen the
sustainability of the Maryland Career Connections initiative by enhancing the
Career Connections marketing focus on informing and involving employers
including mass mailings to the employers informing them about Career
Connections and providing information on how to participate in Career
Connections.

Grantee Response

The MSDE and the CCSMT concur with this finding. The MSDE, in cooperation
with the Maryland State Chamber of Commerce and the CCSMT, is conducting a
mass mailing survey to a selected random sample of employers to inform them
about Career Connections, assess their level of awareness of the school-to-career
system, and provide them with information on how to participate in Career
Connections.

Auditor’s Conclusion

We consider the initial corrective action taken by the MSDE to be sufficient to
resolve this finding. However, the finding cannot be closed until the Grant Officer
has determined that corrective actions have been properly implemented.




                                                                         PAGE 26
  SECTION II




SUSTAINABILITY




                 PAGE 27
                     CHAPTER 1 — LEGISLATION/POLICIES


Legislation

MSDE officials have identified two areas where legislation would aid employer
participation in the Career Connections system. In both instances, legislative bills were
introduced. A bill to provide tax credits for employers as an incentive to participate in
Career Connections was first introduced in January 1996, and again in January 1997.
Neither bill was enacted. Another legislative bill that would cover students participating in
unpaid work-based learning experiences by the State’s workers’ compensation system was
initiated in January 1997. This bill was also not enacted. However, two CCSMT officials
have agreed to craft a new bill that covers students participating in unpaid work-based
learning experiences for introduction in the 1998 legislative session.

Policies

Maryland was able to begin implementation of school reform by means of policy decisions
of the Maryland State Department of Education (MSDE).

Maryland’s current school reform effort began in 1989 with the recommendations of the
Governor’s Commission on School Performance and the Maryland Commission on
Vocational-Technical Education. The Governor's Commission on School Performance
focused on systemic educational reform through the introduction of a comprehensive
school accountability system and the Maryland Commission on Vocational-Technical
Education focused on strategies to integrate and link academic and vocational education at
secondary and post-secondary levels.

The recommendations by the respective Commissions provided the basis for the
development of Maryland’s school reform initiative entitled Schools for Success/Goals
2000 Plan. The strategies to integrate and link academic and vocational education were
consolidated into the Career Connections (School-to-Work in Maryland) component of
the Schools for Success/Goals 2000 Plan.

Career Connections is a strategy for systemwide change and is different from past
approaches that resulted in add-on programs. Career Connections is a key strategy for
school and post-secondary improvement that will be woven into the fabric of efforts to
strengthen education at the secondary and post-secondary levels. Maryland’s vision is for
local communities to develop plans for the systemic approach to school-to-work transition
using appropriate resources and based on specific needs.

Career Connections centers on a combination of work-based and classroom learning for
every student and a host of connecting activities that will smooth the school-to-work
transition. Specifically, Career Connections aims to:

                                                                                  PAGE 28
C      Prepare every graduate to transition into a job or further education.

C      Provide every student with a learning-rich, work-related experience that
       combines both work-based and classroom-based learning.

C      Identify the competencies demanded in a changing economy and ensure
       that every graduate masters the academic, work-related and life skills
       required for a smooth transition into a productive career.

C      Lay a foundation for lifelong learning that will enable students to progress
       and adapt to meet changing workplace demands.

We identified the following major policies, strategies, and initiatives that are
supportive of sustaining Career Connections after Federal STW funding ceases:

Roll-out Strategy

At the state-level, a Career Connections State Management Team (CCSMT)
provides overall policy guidance and management and is staffed by individuals
representing State agencies, education, business, organized labor, community
colleges, and local communities. The CCSMT is responsible for all programmatic,
implementation, and policy issues for Career Connections including developing an
action plan, implementing the plan, and monitoring the progress and outcomes as
Career Connections evolves.

At the regional-level, 12 Local Labor Market Teams (LLMTs), that coincide with
the Job Training Partnership Act (JTPA) Service Delivery Areas, are responsible
for providing leadership and general administration to the school improvement
teams for the Career Connections system. LLMTs consist of individuals
representing employers, labor leaders, human resource agencies, secondary and
post-secondary education officials, community leaders, parents, and students.

At the local-level, existing school improvement teams, comprised of the principal,
school staff members, parents, community members, and business members, will
implement Career Connections. School improvement teams had previously been
established to implement educational reform.

The CCSMT decided that LLMTs would work with school improvement teams at
the local level for implementation of educational reform including the Career
Connections system.




                                                                          PAGE 29
Local Labor Market Team Funding Strategy

The CCSMT developed a Request for Proposal (RFP) for the awarding of STW
grant funds to the LLMTs. The RFP requires the LLMTs to identify a 50 percent
match of requested funds, including cash contributions and in-kind services. The
RFP also requires the LLMTs to set aside 25 percent of any implementation grant
received for a local/regional Employer Incentive Fund. (See page 45 for more
information.)

The CCSMT also requires the LLMTs to adopt the guiding principles of Career
Connections and the State Career Connections logo, and participate in state-level
Career Connections activities.

The CCSMT judges each LLMT’s grant proposal by using comprehensive
readiness criteria outlined in Maryland’s Implementation Grant, Attachment K.
The CCSMT only funds LLMTs that demonstrate the ability to plan for a
comprehensive educational reform effort that fully integrates the private sector.

As of August 6, 1997, all LLMTs had received Federal STW grant funding from
the State with the exceptions of the Anne Arundel LLMT (Annapolis and the
surrounding area) and the Susquehanna LLMT (three counties in northeast
Maryland).

Blended Instruction Policy

In June 1993, the MSDE developed Making High Schools Work Through Blended
Instruction, a vision and plan for the integration of academic and “career and
technology” education (Maryland’s name for vocational education). Blended
instruction unites the concepts, principles, content application, and skills from both
academic and occupational disciplines to form a more inclusive educational
experience.

The MSDE Division of Career Technology and Adult Learning (DCTAL), which
administers Career Connections, collaborated with the MSDE Division of
Instruction and Staff Development to present workshops for “blended instruction”
in March and May 1997.

Career Development Model

Maryland’s Career Development Model provides a system through which students
can identify and assess career interests and goals in order to select a career-
focused program of study by grade 11 as well as prepare for post-secondary
education. An MSDE official stated that the Career Development Model was
established in 1994. The Career Development Model spans from kindergarten

                                                                           PAGE 30
       through post-secondary education, thus creating a seamless system. As part of
       local Career Connections plans, teams have structured a kindergarten through
       post-secondary learning continuum of school-based and work-based activities
       around the Career Development process steps. Local Career Connections teams
       will implement this continuum in their School-to-Careers system plans. Local
       teams, school systems, and schools are expanding and improving academic and
       career counseling in the elementary and secondary grades through the
       implementation of Maryland’s Career Development Model.

       VISIONS Program

       VISIONS is Maryland’s computer-based career information delivery system. The
       customized software is available at cost to all schools. The high school portion
       was developed in 1992 and the middle school portion was developed in 1994.
       VISIONS is linked to Career Net which is the information system for the
       One-Stop approach funded through DOL. The link between VISIONS and Career
       Net is an example of a School-to-Work connecting activity.

                                      -----------

Except as noted in Chapter 2 of Section I, we believe that Maryland’s current policies,
strategies, and initiatives, if fully implemented throughout the State’s educational system,
would enhance the probability of the STW initiative continuing after the cessation of
Federal STW funding.




                                                                                   PAGE 31
                           CHAPTER 2 — GOVERNANCE


Maryland has established a three-tiered governance structure (State, regional, and local)
for administering the Career Connections system.

State-level Governance

The state-level governance structure for the Career Connections system includes the
Governor’s Office, key stakeholder oversight groups, and the Maryland State Department
of Education (MSDE).

       Governor’s Office Participation

       School reform has been spearheaded by the Governor’s Office since 1989 when
       the Governor’s Commission on School Performance recommended systemic
       educational reform changes through the introduction of a comprehensive school
       accountability system.

       In addition to submitting Maryland’s Implementation Grant application in
       June 1995, the Governor has directly participated in various Career Connections
       activities including:

       C       speaking at the Career Connections Bidder’s Teleconference;

       C       presiding over the release of a new resource directory;

       C       proclaiming Career Connections Month; and

       C       authoring a newspaper editorial.

       In October 1995, the Governor spoke at the Career Connections Bidder’s
       Teleconference where the first round of LLMT implementation grants were
       announced. The Bidder’s Teleconference was aired via satellite through Maryland
       Public Television and videoconference locations were set up in various community
       colleges throughout Maryland.

       On July 19, 1996, the Governor presided over the debut of a new resource
       directory, entitled Environment Maryland! A Directory of Business, Education,
       and Resources, in Baltimore, MD. This directory was published with the help of
       business, education, and environmental partners and a $44,322 CCSMT grant
       funded from the STW Federal grant. This directory gives students access to
       approximately 1,000 addresses and descriptions of environmental employers and


                                                                                 PAGE 32
educational programs in Maryland. The directory can be used by students for
environmental career information and environmental education opportunities.

Also, the Governor signed a Proclamation on May 1, 1997, declaring May 1997
as Career Connections Month. The Proclamation included the following
statements:

C      Maryland’s Career Connections system will ensure that all students
       graduate from high school focused on a career pathway that leads to
       further education and employment.

C      Career Connections ensures that employers will have a well-prepared
       workforce to meet their future needs.

C      The changing nature of work requires every individual to become a
       lifelong learner in order to continually gain new academic and technical
       skills.

C      It is important to raise awareness of Career Connections efforts at local and
       State levels in order to gain the support and participation from employers,
       labor unions, students, educators, and parents.

The Governor also authored an editorial, entitled “Getting students ready for
tomorrow’s careers today,” that was supportive of Career Connections. The
editorial was published in a suburban Baltimore newspaper on May 8, 1997.

Moreover, every 4 to 6 weeks, the Governor’s Office is briefed by the MSDE
State Superintendent of Schools on the progress of Career Connections.

Key Stakeholder Groups

Maryland’s school reform initiatives, which includes Career Connections, have
been assisted by the formation of the following key stakeholder groups:

       Maryland Business Roundtable for Education (MBRT) — The MBRT is
       comprised of representatives from Maryland’s 80 largest businesses who
       have committed themselves to work together for 10 years to support
       educational reform and improve student achievement in Maryland. With
       the close of 1996, the MBRT reached the halfway mark of the 10-year
       commitment. Through the MBRT, nearly 400 business executives and
       other stakeholders have joined forces to strengthen or redesign systems
       that affect student learning. Among other initiatives, the MBRT
       developed statewide plans for technology in education and for professional
       development for educators. The MBRT assigned business executives to

                                                                         PAGE 33
schools in need of assistance to improve. They provided corporate team-
building training to over 300 school community members. The MBRT has
pushed for high standards, rigorous assessments, and strong accountability.

Governor’s Workforce Investment Board (GWIB) — Established in 1983,
the GWIB is the strategic coordinating body that shapes the State’s human
resource investment policy. In 1993, Maryland elected the option of
creating a single human resource investment council for all Federal
programs. The GWIB includes key cabinet members, leading business and
labor leaders, educators, and community officials. The GWIB empowers
business and government to work together to improve the workforce
preparation system and is committed to the goals and objectives articulated
for Career Connections. Further, the GWIB’s Vice-Chair is a member of
the Career Connections State Management Team.

K-16 Partnership — The Maryland K-16 Partnership Statement, dated
September 1996, included the principle that businesses must be engaged in
the development of standards and curriculum throughout K-16 education
(kindergarten through college). The standards and curriculum should give
students the knowledge and capability they will need to adapt to a
workplace that is changing at an extraordinary rate, and provide meaningful
jobs that enable students to use these skills. This organization includes the
Chancellor of the University of Maryland System, the Secretary of the
Maryland Higher Education Commission, the MSDE Superintendent of
Schools, community college representatives, and others. The most critical
task of the Partnership is to foster opportunities for its members to
establish comprehensive and substantive collaborations that enable all
stakeholders to engage in the far-reaching changes needed in the education
system. One purpose of the Partnership is to provide for transfer of credits
and smooth transitioning of students between State educational institutions,
especially between secondary and post-secondary levels.

Career Connections State Management Team

The GWIB and the MSDE are co-facilitating the development of Career
Connections and providing joint leadership to the CCSMT, which was
created in 1994 and includes representatives from the MSDE, the GWIB,
the Maryland Higher Education Commission, the Maryland Chamber of
Commerce, the Maryland Division of Rehabilitation Services, other State
agencies, organized labor, community colleges, schools, and business
groups.

At the direction of the Governor and State Superintendent of Schools, the
CCSMT has been vested with the authority to make Career Connections a

                                                                  PAGE 34
       reality in Maryland. The CCSMT is responsible for all programmatic,
       implementation, and policy issues for Career Connections including
       developing an action plan, implementing the plan, and monitoring the
       progress and outcomes as Career Connections evolves. The CCSMT
       provides overall policy guidance and management to the 12 Local Labor
       Market Teams described in regional-level governance below.

Maryland State Department of Education’s Participation

The MSDE’s participation in Career Connections includes the State
Superintendent of Schools as well as the Division of Career Technology and Adult
Learning (DCTAL).

The State Superintendent of Schools fully supports Career Connections which is
an important dimension of the State’s educational system and provides a systemic
approach to school reform.

The Superintendent and the Maryland Secretary for Business and Economic
Development have been conducting visits across Maryland promoting Career
Connections and convincing Maryland citizens that Career Connections is for all
students and is not just a reworked vocational education program.

The DCTAL has taken the lead role within the MSDE and administers Career
Connections. MSDE DCTAL will provide leadership to the process for
integrating Career Connections into systemic reform initiatives within the MSDE.
In addition, MSDE DCTAL has responsibility for leadership, coordination, and
management for Maryland’s Federal and State-supported career and technology
programs, adult education and literacy services, and the State’s correctional
education programs. Within the DCTAL, the MSDE has created a Career
Connections Services Branch which assists local school systems and community
colleges with career and technology education as well as teaching students how to
choose and prepare for a career.

The Assistant State Superintendent for Career Technology and Adult Learning
oversees the MSDE internal Career Connections Team to ensure that Maryland’s
School-to-Careers initiative is:

C      linked to the State’s education reform agenda;

C      supportive of the goals for public education; and

C      integrated with MSDE’s school improvement priorities.




                                                                        PAGE 35
Regional-level Governance

Twelve Local Labor Market Teams (LLMTs) are responsible for providing leadership and
general administration to the school improvement teams for the Career Connections
system. LLMTs consist of individuals representing employers, labor leaders, human
resource agencies, secondary and post-secondary education officials, community leaders,
parents, and students.

Local-level Governance

At the local-level, existing school improvement teams, comprised of the principal, school
staff members, parents, community members, and business members, will implement
Career Connections. The school improvement teams had previously been established to
implement educational reform and will implement Career Connections.

                                     -----------

In conclusion, we believe that the MSDE has established linkages with appropriate
management levels to assure needed actions will be taken to continue the Career
Connections system. The DCTAL has taken the lead role within the MSDE to administer
and implement Career Connections. However, the DCTAL’s organizational function
statements and position descriptions do not address the various goals/objectives of the
Career Connections. (See Finding No. 1 in Chapter 2 of Section I.) As a result, there is
no assurance that the DCTAL staff will continue to provide the necessary leadership role
to ensure the successful implementation of the Career Connections initiative.

Except as noted above, Maryland’s current system of governance should enhance the
probability of Career Connections continuing after the cessation of Federal funding.




                                                                                PAGE 36
                  CHAPTER 3 — PERFORMANCE INDICATORS


Maryland has begun establishing performance criteria through the use of strategic plans
and student outcome measures.

Strategic Plans

While the MSDE is not required to have an overall strategic plan, its operating divisions
are required to develop strategic plans. For State Fiscal Years (FY) 1996 and 1997, the
strategic plans of the MSDE Division of Career Technology and Adult Learning (DCTAL)
and the DCTAL’s Career Connections Services Branch address the Career Connections
system initiative.

The DCTAL strategic plan was examined and three goals which support STW were noted.
They are:

C      improve Maryland schools so that learners are prepared for careers, further
       education, or both;

C      incorporate accountability in all DCTAL programs and services; and

C      coordinate and improve the dissemination of information about division programs.

Strategies included within the goals reflect a commitment to implementing the key
components of Maryland’s Career Connections initiative.

The Career Connections Services Branch FY 97 Priority Initiatives were also reviewed.
This document contains strategies for implementing Career Connections which include
having Branch personnel design workshops and/or conferences for teachers,
administrators, and counselors that focus on blended instruction; applied teaching
strategies; and occupational, workplace, and related academic skills. Another strategy
includes having one Branch employee coordinate the design of a teacher education
program that prepares teachers to provide work-based learning experiences for all
students.

                                     -----------

We believe that Career Connections is adequately addressed in the strategic plans of
MSDE’s operating divisions. However, we were informed that a strategic plan does not
exist for the Career Connections State Management Team (CCSMT). MSDE officials
stated that the CCSMT follows the State implementation grant narrative.




                                                                                PAGE 37
Student Outcome Measures

Maryland’s Career Connections system includes three student outcome measures that
involve student performance. These three measures are included in Maryland’s
implementation grant. The three Career Connections student performance measures are:

!      Student Transition to Employment and/or Post-Secondary Education

       By the year 2000, the percentage of students who are employed and/or enrolled in
       post-secondary education within one year of high school graduation will at least
       equal the employment rate of the jurisdiction from which the students graduated.

!      Performance in the Workforce Following Graduation

       By the year 2000, at least 95 percent of the students employed immediately
       following graduation will meet or exceed entry-level occupational skill
       requirements as reported by employers in followup surveys.

!      Performance in College Following Graduation

       By the year 2000, the grade point average for Maryland high school graduates
       enrolled in a Maryland post-secondary institution will exceed 2.5 based on a 4.0
       scale during their freshman year as measured by the Student Outcome and
       Assessment Report.

Beginning with the base year of 1996, Maryland will begin collecting this data for all 1996
high school graduates through surveys that will be conducted in alternating years. The
data is intended to provide post-graduate information on employment and post-secondary
status and success. Data will be summarized by school, school system, and the State.

In order to obtain a more representative response from the graduating class, local school
districts must conduct telephone followups of students not returning their survey forms in
order to obtain a response rate over 70 percent. In addition to following up on students,
employers are also contacted to determine the skill level of the graduates hired by these
employers.

School districts will be paid to make the followup phone calls during survey years (1996,
1998, and 2000) from STW Implementation Grant funds. An MSDE official stated that
no plans currently exist to fund the survey after STW Federal funding ceases. (See
Finding No. 2 in Chapter 2 of Section I.) However, the MSDE official added that local
schools may pay for the surveys or funding may come from other sources when STW
funds cease.




                                                                                 PAGE 38
The collected data will be incorporated into the Maryland School Performance Report
(the Report). Annually, the State publishes the Report which presents performance
information and standards of performance that provide the basis for school improvement.
The Report is part of the Maryland School Performance Program (MSPP), which is the
current accountability system in place. The Report presents data comparing Maryland
school districts against each other in areas including assessed student knowledge,
enrollment, high school program completion, and plans after high school graduation. A
second related report, prepared by each school district, contains detailed information on
each school within the district. All Maryland schools have been involved in the school
improvement effort.

All schools are held accountable for high levels of achievement regardless of the
demographic characteristics of their students, past performance, and/or availability of local
resources. The MSPP requires every public school to develop and implement a school
improvement plan which must address all State and local areas in which standards have
not been met.

                                      -----------

Except as noted above, we believe that Maryland’s Career Connections student
performance measures generally promote the establishment of Career Connections as an
institutionalized delivery system and should enhance the probability of the STW initiative
continuing after the cessation of Federal funding.




                                                                                  PAGE 39
           CHAPTER 4 — INCORPORATION OF OTHER PROGRAMS


Maryland has begun to develop a comprehensive action plan to improve the State
education system.

Maryland’s initial school reform effort, known as Schools for Success, began in 1989 as a
result of recommendations of two State Commissions (described on page 28). Schools for
Success made Maryland one of the first states to develop an action plan for improving its
schools and providing support for the National Education Goals.

In May 1995, Schools for Success was incorporated into Maryland’s Goals 2000 State
Reform Plan and became known as Schools for Success/Goals 2000 (Goals 2000 Plan).
The Goals 2000 Plan was prepared by the MSDE. This Goals 2000 Plan includes Career
Connections as a major component and focuses on all students in terms of preparation for
careers and further education. Consultation occurred between CCSMT and the Goals
2000 Panel throughout the development of the Plan. The Career Connections plan is
included in the benchmarks and timelines for State improvement under Goals 2000.

Blended instruction, technical preparation (tech prep), career development, VISIONS,
career clusters, and the Southern Regional Education Board’s High Schools That Work
(HSTW) initiative have expanded the involvement of community representatives,
employers, and labor organizations in statewide educational reform. These practices and
strategies are scheduled to be expanded and connected to serve as a foundation for
involving labor and business representatives in the further design of career clusters as the
Career Connections component develops and aims to serve all students.

The Vision and Plan for Blended Instruction, for the integration of academic and
vocational education, was jointly developed by the MSDE and stakeholders representing
employers, secondary education, and post-secondary education. Implementation is under
way and will create a system where all students are challenged to higher academic
achievement through instruction that blends theory and application.

The key practices and strategies outlined in the plan have become components of the tech
prep programs developed by 16 consortia in Maryland involving all 24 school systems and
18 community colleges. Tech prep is the name given to programs that offer at least 4
years of a sequential program of study at the secondary and post-secondary levels to
prepare students for technical careers, usually beginning in grade 11 and resulting in the
awarding of an associate degree or the completion of an apprenticeship.

For tech prep program approval, local consortia are required to implement Maryland’s
Career Development Model (see pages 30 and 31 for a description) and provide students
with opportunities to participate in work-based learning linked to school-based studies
through cooperative education, apprenticeships, and other forms of learning. Tech prep

                                                                                   PAGE 40
consortia are also required to work with employers to sequence and integrate academic
and technical skills into planned programs of study leading to employment and further
education at community colleges, universities, or in apprenticeship programs.

The Career Development Model is being linked to Career Connections through the use of
VISIONS in middle school and high school. (See page 31 for a description of VISIONS.)

Maryland officials also identified nine career clusters to organize career majors to more
effectively integrate academic and technical proficiencies and to provide a framework to
link secondary and post-secondary program development. The nine clusters are:
(1) Consumer Service, Hospitality, and Tourism; (2) Business Management and Finance;
(3) Manufacturing, Engineering, and Technology; (4) Environmental and Natural
Resources Systems; (5) Health and Biosciences; (6) Arts, Media, and Communication;
(7) Transportation Technologies; (8) Human Resource Services; and (9) Construction and
Development.

Academic integration and work-based learning efforts are also emphasized in the HSTW
effort, an initiative designed to close the achievement gap in mathematics, science, and
communications between college-bound and career-bound youth. Ten of 24 Maryland
school systems are involved in the HSTW effort.

The MSDE operates over 80 major programs that support the National Education Goals
and the State’s school improvement plan and/or further the progress toward successful
schools. An MSDE official stated that certain programs funded by the Perkins Act such as
tech prep and statewide equity grant programs have been redirected to focus on Career
Connections. Further, the Job Training Partnership Act (JTPA), Adult Education, and the
Maryland Tomorrow program will be closely linked to the Career Connections system per
MSDE officials. The Maryland Tomorrow Program is the largest statewide dropout
intervention program aimed at families with youth that have dropped out of school or are
on the verge of dropping out.

                                     -----------

Maryland has generally taken actions necessary to ensure that the Career Connections
component is fully integrated in the State’s Goals 2000 Plan.




                                                                                PAGE 41
                        CHAPTER 5 — LEVERAGED FUNDS


Maryland officials have identified several potential funding resources that can be used to
maintain the Career Connections system when Federal STW funds are no longer available.
Maryland officials are pursuing a state-level strategy and a regional-level strategy for
identifying other funding streams.

State-level Strategy

The Evaluation/System Sustainability Workgroup of the Career Connections State
Management Team has been charged to:

C      fully develop the methods for evaluating progress of implementation and the
       ultimate outcomes for Career Connections;

C      ensure that Career Connections outcomes are fully integrated into the State’s
       workforce accountability system;

C      recommend policy and procedural methods which will promote sustainability of the
       system once Federal venture capital is exhausted;

C      identify other long-term resource streams that can support Career Connections;
       and

C      create a primer for State and local use that will guide partnerships through the
       steps needed to identify and access other public and private resources to
       underwrite the additional costs required for a school-to-careers system.

The Workgroup has identified several potential Federal, State, and local resources that can
be used to support the implementation of Career Connections.

Potential Federal resources include funding from the following: the Elementary and
Secondary Education Act Title I, the Carl D. Perkins Vocational and Applied Technology
Education Act (Perkins Act), the Individuals with Disabilities Education Act, and the
JTPA.

Potential State resources include funding from the following: Compensatory Education,
State Set Aside for Career and Technology Programs, Students with Disabilities, and
Maryland’s Tomorrow Program.

Some examples of planned usage of leveraged Federal funds include:




                                                                                 PAGE 42
C      using JTPA Summer Youth funding to link youth into work-based summer
       opportunities that creates a year-round school-to-career pathway;

C      using Perkins Act funding for curriculum development; and

C      using Elementary and Secondary Education Act Title I funding for before school,
       after school, and summer school STW programs that would result in a year-round
       STW strategy for disadvantaged youth.

Maryland is also an “Ed-Flex” state, which allows the State and its subgrantees to be
exempt from certain statutory and regulatory provisions involving U.S. Department of
Education funding and to waive certain requirements involving Improving America’s
School Act programs and Perkins Act programs.

Regional-level Strategy

As a condition to receiving Federal STW funding, the CCSMT requires the Local Labor
Market Teams (LLMTs) to describe how collaboration will occur with existing school-to-
careers efforts with funds available from Federal education and training programs such as
the JTPA, the Perkins Act, the Adult Education Act, the Apprenticeship Act, the
Elementary and Secondary Education Act, the Goals 2000: Educate America Act, the
National Skills Standards Act, and the Rehabilitation Act. The LLMTs must clearly
demonstrate a 50 percent match of requested funds, including cash contributions and
in-kind services. Furthermore, the funding agreements include Employer Incentive Fund
(employer incentive) criteria that requires documentation of at least a 50 percent match for
grant requests from the Employer Incentive Fund. (See page 45 for more information.)
Consequently, the CCSMT is requiring LLMTs and the stakeholders to consider other
sources of funding besides Federal STW grant dollars in implementing Career
Connections.

                                     -----------

Maryland has taken initial actions necessary to ensure the funding needs of the Career
Connections system by identifying other Federal and State funding sources which should
enhance the probability of Career Connections continuing after the cessation of Federal
funding. However, we were unable to determine if the State has ensured that these other
funding resource streams will actually be programmed and budgeted in future years.




                                                                                 PAGE 43
             CHAPTER 6 — INVOLVEMENT OF STAKEHOLDERS


Maryland’s STW grant funds are targeted for use to build and link system components to
ensure that every student participates in school-based learning, work-based learning, and
connecting activities. The Career Connections State Management Team (CCSMT), which
oversees statewide implementation, has been vested with the authority to make Career
Connections a reality in Maryland and provides overall policy guidance and management
to the Local Labor Market Teams (LLMTs) and local partnerships. The CCSMT has
developed strategies to involve employers, organized labor, teachers, students, and other
stakeholders in the Career Connections initiative including an Employer Incentive Fund, a
planning retreat, three School-to-Careers Regional Workshops, and an Employer
Participation Strategy document.

Employer Incentive Fund

Several million dollars of Maryland’s STW Implementation Grant are being set aside for a
state-level Employer Incentive Fund (EIF) and regional LLMT-level EIFs which provide
an incentive for employers to participate in Career Connections.

Maryland officials believe that incentives, that can absorb some of the up-front costs of
providing a quality work-based learning experience, are important in engaging employers.
The CCSMT established EIFs at both the state-level and the regional LLMT-level to
establish an incentive for employers to participate in the Career Connections system.

At the state-level, approximately $400,000 of Maryland’s first year implementation
funding was competitively awarded to nine industry specific groups of employers, trade
associations, and labor groups within four targeted career cluster areas with potential
growth and opportunity for high-skill, high-wage careers. Maryland also set aside
$800,000 of the second year implementation funding for the state-level EIF. The potential
growth career cluster areas are: (1) Health and Biosciences; (2) Manufacturing,
Engineering, and Technology; (3) Environmental, Agricultural, and Natural Resource
Systems; and (4) Consumer Service, Hospitality, and Tourism.

The state-level EIF goals are to:

C      encourage strategic employer involvement in Career Connections;

C      develop replicable models of collaboration among employers;

C      expand career development opportunities for students in targeted industry clusters;
       and

C      stimulate the development of high level work-based learning opportunities.

                                                                                PAGE 44
At the regional-level, the CCSMT requires all LLMTs to dedicate 25 percent of their
implementation grant funds to offer regional EIF grants. Further, grant criteria requires
documentation of at least a 50 percent match for grant requests from the regional EIFs.

Maryland’s 5-year estimated projections are to pass through $21 million of the
$25.2 million 5-year implementation grant to the LLMTs. Consequently, over
$5 million (25 percent of $21 million) is projected to be available for the regional EIFs.

The regional EIF goals are to:

C      stimulate the strategic, ongoing involvement of employers in the local/regional
       school-to-careers system;

C      increase the number of high quality, work-based learning opportunities integrated
       with school-based learning and related to career clusters;

C      develop a variety of employer partnerships that can be replicated within the region
       and across the State;

C      increase the participation of small employers in all aspects of implementing
       Maryland’s school-to-careers system; and

C      link the implementation of the school-to-careers system with local/regional
       economic development efforts.

However, we determined that no formal plan exists for continuation of the EIFs at either
the state-level or regional LLMT-level after the cessation of Federal STW grant funding.
An MSDE official stated that there is no assurance that employers will participate in
Career Connections in the absence of the EIFs.

Employers are critical stakeholders in any STW system. As stated in the readiness criteria
of the State Implementation Grant, linkages with employers are at the heart of Career
Connections. Employers need to be full partners in the development, implementation, and
maintenance of Career Connections. This fact was stressed in a 1997 report issued by the
DOL-ETA, entitled Experiences and Lessons of the School-to-Work/Youth
Apprenticeship Demonstration. On page 187, this report states in part:

       . . . [STW] Programs initiated by schools end up emphasizing school-based
       activities. School-led initiatives have greater control over school-based resources
       . . . but less access to employers . . . school-led programs have more difficulty on
       their own marketing their initiatives to employers; consequently, they develop
       fewer and less-intensive work-based activities. . . .




                                                                                   PAGE 45
Consequently, if employers do not continue to fully participate, then Career Connections
will not function in accordance with the School-to-Work Opportunities Act of 1994.

We believe that Maryland would significantly increase the probability of continued
employer participation in Career Connections by establishing formal plans to leverage
funds from other existing resource streams for ensuring the continuation of EIFs at both
the state-level and regional-level. (See Finding No. 2 in Chapter 2 of Section I.)

Career Connections Planning Retreat

In November 1994, a Career Connections planning retreat was sponsored by the CCSMT
for the purpose of addressing further development of strategies for statewide systems
building. Specifically, these strategies included the development of a refined shared vision
that was linked to educational reform initiatives, a set of criteria to determine local
readiness to implement school-to-work systems, and a plan for what students will learn
through the school-based and work-based components. Approximately 30 leaders
representing major businesses, labor organizations, educational agencies and institutions,
parent associations, student groups, and others attended this retreat.

School-to-Careers Regional Workshops

In November 1996, CCSMT officials held three School-to-Careers Regional Workshops
to encourage stakeholder involvement in Career Connections. One workshop was held for
western Maryland, another for central Maryland, and another for the “Eastern Shore.”

Employer Participation Strategy

The Employer Participation Strategy serves as a framework regarding employer
participation in Career Connections. The Employer Participation Strategy is based on the
premise that business leaders and educators are learning they must work together to
reinvent the public education process. In contrast to many previous “programs” and
workforce development initiatives, Career Connections is an effort to establish a new
delivery “system.” Since work-based learning is an essential component of the process,
the role of employers is vastly expanded and extraordinarily critical.

Regional-level Stakeholder Involvement Strategies

Local Labor Market Team (LLMT) strategies for the involvement of employers,
organized labor, teachers, students, and other stakeholders in the Career Connections
initiative includes the regional-level EIF (discussed on page 45) and local school Career
Connections team certification.




                                                                                  PAGE 46
Local Career Connections Team Certification

As a requirement to obtain STW funding from the CCSMT, each LLMT had to certify
that each school within its boundaries had formed a local school Career Connections team
consisting of employers, parents, students, labor leaders, administrators, and community
officials that meets regularly, is functioning, and is ultimately responsible for making
Career Connections an integral part of school improvement planning.

Other State Activities Promoting Stakeholder Involvement

Several other activities have been initiated to obtain involvement and commitment of
stakeholders in Career Connections including:

!      A statewide Career Connections conference was held in the spring of 1994 and
       was attended by 300 key stakeholders from across Maryland. The purpose of the
       conference was to create an awareness of the STW Opportunities Act and to share
       exemplary school-to-careers models at state and national levels.

!      A statewide cooperative education conference was held in the fall of 1994 that
       brought together members of the secondary and post-secondary cooperative
       education associations to learn about the school-to-careers system and plan for its
       full scale implementation in Maryland using cooperative education as a key
       strategy. Cooperative education is a structured method of instruction whereby
       students alternate or coordinate their high school and post-secondary studies with
       a job in a field related to their academic or career pathway objectives. Students
       and participating employers develop written training and evaluation plans to guide
       instruction, and students receive course credit for both their classroom and work
       experiences.

However, an MSDE official stated that additional effort is required to:

C      help stakeholders understand the system;

C      ensure that all stakeholders are not just in partnerships, they actually want to be in
       partnerships;

C      ensure regional LLMT support; and

C      update officials as a result of leadership changes, especially at the school district
       superintendent level.

For example, the State Chamber of Commerce did not initially support Career
Connections because the Chamber representatives questioned what employers would gain


                                                                                    PAGE 47
from their participation. After approximately 18 months, the State Chamber of Commerce
President became a member of the CCSMT.

                                     ----------

Except as noted above, we believe that Maryland has generally taken actions necessary to
ensure the initial involvement of stakeholders, such as students, employers, schools,
parents, trade associations, unions, and professional associations.




                                                                               PAGE 48
                 CHAPTER 7 — SYSTEM ROLL-OUT TO REGIONAL
                         AND LOCAL PARTNERSHIPS


Regional and local school-to-career system plans will be integrated into the State’s Career
Connections system through a roll-out strategy that brings all Local Labor Market Teams
(LLMTs) into implementation by June 30, 1998. Maryland’s 5-year estimated projections
are to provide $21 million of the $25.2 million 5-year STW Implementation Grant to the
LLMTs. Roll-out is initially performed at the state-level, then at the
regional-level, and finally at the local-level.

State-level

The State’s roll-out strategy is based on a competitive two-part grant process consisting
of a grant application from the regional LLMTs and an onsite visit by members of the
Career Connections State Management Team (CCSMT).

The CCSMT has been established to provide overall policy guidance and management to
the regional LLMTs and local partnerships for the Career Connections system.

The CCSMT is engaged in all aspects of the two-part grant process and approves the
LLMTs’ implementation plans for funding. The LLMTs’ selection criteria are the same as
the criteria for the Direct Federal Local Partnership Grants with additional requirements
which include the identification of a regional roll-out strategy based on high school feeder
systems and school improvement planning as well as the establishment of an Employer
Incentive Fund. Each LLMT’s resource share is determined by using the State’s
educational formula that ensures both the size and relative wealth of a jurisdiction are
taken into account when awarding funds.

The CCSMT also plans to monitor and evaluate the progress of the roll-out by reviewing
LLMTs’ quarterly progress reports and conducting onsite visits. Quarterly progress
reports from the LLMTs are due in February, April, July, and October of each year. The
next onsite monitoring visits are scheduled to begin in September 1997. Monitoring and
evaluation will be gauged against the roll-out plan provided in the implementation plans
and the continuing applications.

The CCSMT’s approach is to provide the LLMTs with a 3-year period of performance to
spend the funds, fully implement their vision, and sustain the system through the transition
to other resource funding streams.

Regional-level

At the regional-level, the Career Connections system is organized around the 12 LLMTs
that coincide with the Service Delivery Areas created under JTPA. The 12 LLMTs

                                                                                  PAGE 49
provide leadership and general administration to local partnerships. Each of the
12 LLMTs was designated as a separate Career Connections planning area in order to
bring business and government into the local planning effort as quickly as possible. Each
LLMT is responsible for implementation of the local plan.

Initially, the State’s roll-out strategy was to phase-in all LLMTs by State
Fiscal Year (FY) 1997 (by June 30, 1997). It is now anticipated that Maryland will have
all 12 LLMTs funded in State FY 1998 (by June 30, 1998), which will then indicate full
system implementation.

In March 1996, three LLMTs were funded based upon a competitive process using the
State’s comprehensive readiness criteria. As of August 6, 1997, 10 LLMTs have been
funded by the State.

The LLMTs are operating under a roll-out plan including projected outcomes, activities,
and timelines and are in the early stages of implementation. Some of the most exemplary
LLMTs, per an MSDE official, are Mid-Maryland (Carroll and Howard counties).
Western Maryland (Allegany, Garrett, and Washington counties), and Frederick County.
Each of the public school systems in these regions have initiated school restructuring
efforts around the region’s career cluster framework.

One of the State’s 12 LLMTs, the City of Baltimore, was awarded two Federally funded
STW local partnership grants. An Urban/Rural Opportunities Grant for approximately
$1.3 million was awarded in November 1994 with a multi-year period of performance and
one Local Partnership Grant for $700,000 was awarded in March 1996 with a 1 year
period of performance. It appears that the MSDE and the Baltimore City Local
Partnership have taken steps to ensure that the direct Federally funded partnership will be
integrated into the State’s Career Connections system.

Local-level

At the local-level, the 12 LLMTs provide leadership and general administration for the
school improvement teams (i.e., local partnerships). These existing school improvement
teams, which include the principal, school staff, parents, business members, and
community members, will implement Career Connections.

Of Maryland’s 24 school systems, 21 are in the initial stages of roll-out. Each local
implementation plan describes the area’s roll-out strategy for high school feeder systems.
Maryland is also providing School-to-Careers Institutes to facilitate the local roll-out
strategy with the LLMTs and school improvement teams.

                                     -----------




                                                                                 PAGE 50
We believe that Maryland has taken initial actions necessary to integrate regional and local
partnerships into the State’s STW system which should enhance the probability of Career
Connections continuing after the cessation of Federal funding.




                                                                                  PAGE 51
               CHAPTER 8 — INCENTIVE/REWARD STRUCTURE


The Career Connections State Management Team (CCSMT) officials believe that they
have established an incentive/reward structure for each of the various stakeholder groups
involved in Career Connections. They also believe that these incentives and rewards are
working well in Maryland. Initial State efforts have been focused on building partnerships
that will be sustained after the Federal STW funding period ends. However,
improvements in the system of incentives and rewards are constantly under consideration
by the CCSMT.

The CCSMT officials provided various incentives and rewards for the Maryland State
Department of Education (MSDE) and the various stakeholder groups including students,
employers, parents, teachers/guidance counselors, labor unions, trade/business
associations, and school administrators.

Maryland State Department of Education

The CCSMT officials believe that MSDE’s participation in the school-to-careers system is
rewarded by incentives and rewards that will be tangible absent Federal funding. For
example, Career Connections is integral to the State’s total educational reform initiative
that is embraced by the local school systems. The CCSMT officials believe that the
MSDE is rewarded by participation in Career Connections by:

C      observing the changes and improvements that local school systems have made in
       instruction, assessment, and curriculum as a result of Career Connections;

C      preparing teachers to be more effective in the classroom through support of
       professional development schools (see pages 56 and 57 for a description);

C      preparing more employers and educators to be effective mentors to students;

C      offering more work-based learning opportunities to teachers and students; and

C      observing improvements in results or outcomes for students, employers, and higher
       education.

Students

The CCSMT officials included skill certificates and report cards as incentives/rewards for
students. However, these incentives/rewards have not been standardized or
institutionalized throughout Maryland’s educational system.




                                                                                 PAGE 52
A feasibility study will be conducted next year to determine how best to implement skill
certificates for students. Performance specifications have been developed for 20 career
majors that align with Maryland’s 9 career clusters and high demand occupations.

Students are not required to participate in school-to-careers as a high school graduation
prerequisite. However, several schools have begun the reporting of results achieved by
students that have elected to participate in the Career Connections initiative. The schools
either report the work-based learning grades or document the knowledge, skills, and
abilities by use of employability profiles and student portfolios. Currently, the LLMTs are
aligning the Career Connections system to include work-based learning, school-based
learning, and connecting activities for all students.

Employers

Maryland officials pointed to the Employer Incentive Fund (EIF) and Industry Education
Advisory Work Groups (IEAWG) as incentives/rewards for employers.

The EIF was established at both the state-level and at the regional LLMT-level to
encourage employers, labor unions, and business leaders to (1) expand work-based
learning for students, (2) involve employers in revising curricula, and (3) enable teachers
to learn about employers’ expectations in order to make learning more relevant.

IEAWGs were convened to identify the technical, academic, and workplace skills
necessary for successful performance in several career majors. These performance
standards serve as a foundation for establishing portable skill certificates. CCSMT
officials believe that participation in the IEAWGs by industry, labor, and business partners
is an incentive because these groups need skilled employees and their involvement in
curricula revisions will lead to better prepared graduates.

Parents

Maryland officials stated that they developed a Career Connections parent outreach kit
which was distributed at the annual State Parent Teacher Association (PTA) meeting.
This kit contained an eight minute video, a school-to-careers glossary of terms, Career
Connections fact sheets, and a list of contacts. The MSDE Assistant State Superintendent
for Career Technology and Adult Learning regularly meets with the State PTA by being a
presenter on their agenda at each conference and meeting with the PTA’s executive
committee members. No other specific incentives or awards have been developed to
address parents other than the ensuring of successful futures for their children.

Teachers/Guidance Counselors

Maryland officials stated that teachers and guidance counselors are awarded in-service and
preservice credit for participating in Career Connections professional development

                                                                                   PAGE 53
activities, such as conferences, workshops, and activities through the professional
development schools. Further, teachers are paid stipends for attending summer
workshops and evening or weekend training sessions. One Maryland official also stated
that teachers want to make things better for their students. Career Connections gives an
answer to students’ questions about why they learn certain subjects.

Labor Unions

Maryland officials pointed to the Employer Incentive Fund (EIF), Industry Education
Advisory Work Groups (IEAWGs), and participation on the various Career Connections
teams as incentives/rewards for labor unions.

The EIF was established to encourage employers, labor unions, and business leaders to
(1) expand work-based learning for students, (2) involve employers in revising curricula,
and (3) enable teachers to learn about employers’ expectations in order to make learning
more relevant. The State AFL-CIO received a state-level EIF grant in the first round of
grant competition.

IEAWGs were convened to identify the technical, academic, and workplace skills
necessary for successful performance in several career majors. These performance
standards serve as a foundation for establishing portable skill certificates. Industry, labor,
and business partners’ participation in the IEAWGs is an incentive because they need
skilled employees and their involvement in curricula revisions will lead to better prepared
graduates. Union leaders are aware of the work that Maryland is doing to prepare for
skill certificates/portable credentials and union representatives have served on the
IEAWGs as certain performance specifications have been developed.

Also, LLMTs are required to have union representation and two union representatives
serve on the CCSMT.

Trade/Business Associations

Maryland officials commented on the EIF and IEAWG as incentives/rewards for
trade/business associations. Maryland is also one of 16 states participating in the
“Building Linkages for Manufacturing” project which is funded by the NSTWO and the
National Skills Standards Board.

School Administrators

One Maryland official stated that school administrators want something to accomplish.
The school administrators want good publicity and to make their schools better by
decreasing problems, increasing attendance, and increasing students’ engagement in
learning.


                                                                                    PAGE 54
School administrators (through school improvement teams) can apply for local Career
Connections funds through LLMTs to create school-to-careers systems within the feeder
systems linking elementary, middle, and high school. Further, State Career Connections
funds are used to provide professional development which helps school administrators to
involve more of their staff members in workshops and conferences.

The CCSMT representatives include the local superintendents and local community
college presidents.

                                      -----------

Maryland has generally taken actions that provide a system of incentives and rewards for
each of the various groups of stakeholders which should ensure the initial and continued
involvement of these various groups. However, students are not required to participate in
Career Connections as a graduation requirement which may lessen the probability of
Career Connections continuing after the cessation of Federal funding. (See Finding No. 3
in Chapter 2 of Section I.)

The Schools for Success/Goals 2000 plan identified an area of particular concern in that
STW systems be designed to engage all students in career planning and preparation, and
that systematic approaches be developed to ensure participation, not just access, for all
students. The readiness criteria of the State Implementation Grant states in part “The high
school experience needs to include an ever-increasing exposure to what life following
high school demands . . . this exposure may be structured around jobs and other
experiences that the student would take part in . . . a commitment to provide a significant
array of workplace learning experiences for all students (emphasis added) is the critical
element.”

Maryland’s Career Connections vision includes, “Each student participates in a
challenging, purposeful program of study which takes place in both school and work
settings (emphasis added) in order to blend theory and application.”

Maryland officials believe that the commitment to integrate workplace and higher
education experiences for all students is the single largest structural change for Maryland’s
schools. The MSDE’s State Board of Education sets the standards for high school
graduation requirements. However, we were informed that students are not required to
participate in Career Connections as a high school graduation prerequisite. Instead, the
State Board of Education only requires each student to select either an academic pathway,
an occupational pathway, or both.

We believe the Maryland State Board of Education should emphasize student participation
in all Career Connections components (school-based learning, work-based learning, and
connecting activities) as a high school graduation prerequisite for every student.


                                                                                  PAGE 55
                 CHAPTER 9 — CERTIFICATION OF TEACHERS
                       AND GUIDANCE COUNSELORS


No standardized requirements are in place to ensure that teachers and guidance counselors
receive Career Connections training as part of the State’s certification process of teachers
and guidance counselors.

As of July 1, 1997, we were informed by MSDE officials that the State Board of
Education does not require Career Connections training as a prerequisite to certification
or renewed certification to teach in Maryland. Rather, it is MSDE’s position that
incentives and quality professional development offerings motivate teacher interest to
participate in state-level training. Therefore, it is MSDE’s position that if Career
Connections becomes ingrained in the various school systems, teachers and administrators
will know that they need Career Connections-related training even though it is not
required.

Local Labor Market Teams (LLMTs) are required to offer professional development
opportunities for all of their partners, including teachers. Two types of teacher training
related to Career Connections are currently being implemented:

C      Preservice Professional Development Schools

C      In-Service Workshops

As a result of teacher education reform initiated in late 1991, Professional Development
Schools (PDS) were initiated in early 1996. While the specific characteristics and designs
of PDS will vary, they will all share the following characteristics of the PDS:

!      PDS will serve as the setting for extensive internship experiences for prospective
       teachers. While it is anticipated that most interns will spend an entire school year
       learning and teaching in their PDS assignments, the exact length and nature of the
       experience will depend on the unique characteristics and needs of the interns.

!      PDS will model the best in teaching and learning for the pre-kindergarten-grade 12
       students, teacher interns, experienced teachers, other school personnel, and
       university and college faculty. These sites will reflect the most current research
       and best practices in education.

!      PDS will provide a problem-centered approach to teaching and learning for
       pre-kindergarten-grade 12 students, interns, and experienced teachers.

!      PDS will provide opportunities for continuing growth and development of
       experienced teachers, other school personnel, and university and college faculty.

                                                                                   PAGE 56
!      University faculty will actively participate in PDS.

!      Practicing teachers will have expanded opportunities to test new approaches,
       conduct and participate in research, and share observations in scholarly settings.

Currently, 13 pilot PDS partnerships between approximately 10 higher education
institutions and 10 school systems have been funded. The pilot sites represent a variety of
urban and rural sites including elementary, middle, and high schools. A similar initiative
for guidance counselors is in operation at the University of Maryland - Eastern Shore and
a local middle school while another is planned at Frostburg State University (western
Maryland).

In-service workshops for Career Connections professional development activities are
available to teachers who choose professional equivalent training for renewal of their
certification. The MSDE requires established teachers to renew their certifications by
obtaining six continuing education credits or the “professional equivalent” of training.

For example, some LLMTs offer credit to teachers who participate in work-based learning
and integrate knowledge gained into their curricula and instructional activities. MSDE
staff members offer Career Connections workshops (i.e., blended instruction) that enable
participants to earn in-service credit which provides an incentive for teachers to attend.

Blended instruction workshops were held on March 7 and May 19, 1997. Blended
instruction is the uniting of concepts, principles, content application, and skills from both
academic and occupational disciplines to form a more inclusive education experience.
Blended instruction provides a method and a structure for linking academic and
occupational disciplines to teach content and process within the context of a broad career
field and increases the academic content of occupational curriculum and contextualizes
academic curriculum, which increases retention.

                                      -----------

We believe that Maryland has initiated a number of significant school reform initiatives.
However, in order for these initiatives to be successful, teachers will need to understand
and contribute to them. Teachers entering school familiar with and committed to these
reforms will contribute immeasurably to the process and success of the reform effort.
Therefore, we believe that it is necessary for teacher preparation to be linked to school
reform. We also believe that the incorporating of specific Career Connections
requirements as a prerequisite to certification and renewed certification to teach is a
desired way to ensure that all teachers are properly trained and certified as having the
necessary skills. (See Finding No. 4 in Chapter 2 of Section I.)




                                                                                   PAGE 57
     CHAPTER 10 — SKILL CERTIFICATES/PORTABLE CREDENTIALS


The skill certificate/portable credential process and assessment process is still being
developed. Consequently, it is not always possible to determine if employers and post-
secondary institutions are recognizing the Career Connections system or if this system is
producing quality new hires and/or college students.

Maryland officials are involved in two initiatives that will eventually lead to the issuance of
skill certificates to individual students. One initiative involves 16 states and is entitled
Building Linkages in Manufacturing while the other initiative is mainly within Maryland
and involves developing performance specifications for certain occupational areas.

Building Linkages in Manufacturing

Maryland is one of 16 states participating in the Building Linkages in Manufacturing
Project led by Indiana and co-funded by the National School-to-Work Office and the
National Skills Standards Board. This project will produce portable credentials against
industry-validated skills standards in manufacturing for use in Maryland and other states.

The goals for building linkages among academic and skill standards for manufacturing
occupations are to:

C      provide a model for portable credentials;

C      provide a portable credential for manufacturing recognized from school-to-school,
       state-to-state, and industry-to-industry;

C      provide common definitions for manufacturing skills (technical, workplace, and
       academic);

C      connect career pathways in manufacturing to occupations;

C      provide examples and protocol for successful integration of academic, technical,
       and workplace skills; and

C      provide models for involving stakeholders (parents and community leaders).

Performance Specifications In Occupational Areas

Maryland has high school programs that cover 91 occupational areas, also referred to as
career cluster majors. The MSDE has developed performance specifications in 20 of the
91 career cluster majors. Ten career cluster major specifications were developed in 1995
and another 10 were developed in 1996. An MSDE official stated that these 20

                                                                                    PAGE 58
occupational areas were initially selected based upon labor market need as well as the
number of students that had enrolled in these occupational areas in past years.

Beginning in January 1994, a Program Standards Task Force involving educators and
employers was established to develop new program standards and performance
specifications for various occupational majors within the following nine career clusters:

C      Consumer Service, Hospitality and Tourism
C      Business Management and Finance
C      Manufacturing, Engineering, and Technology
C      Environmental and Natural Resources Systems
C      Health and Biosciences
C      Arts, Media and Communication
C      Transportation Technologies
C      Human Resource Services
C      Construction and Development

The task force created a process to ensure that the performance specifications are
consistent with the workforce preparation needs projected for the twenty-first century.
Under the leadership of the MSDE Career Connections Branch, Industry/Education
Advisory Work Groups (IEAWGs) were convened to verify technical, academic, and
employability skills for the career cluster majors beginning in May 1995. For each career
cluster major, the 2-day verification process involved an IEAWG team consisting of four
industry representatives and four teachers, two from the career area and two from the
academic or foundation skills areas.

Initial outcomes were identified for validation using voluntary national skill standards
where available and the most recent employer-validated task lists found in
V-TECS (Vocational-Technical Education Consortium of States) documents, DACUM
(Developing a Curriculum) charts, and other sources.

Since 1973, V-TECS has provided high quality, business and industry validated,
competency-based, vocational-technical outcomes standards, curriculum resources, and
assessment vehicles. By sharing services, technology, and resources, V-TECS seeks to
assure that comprehensive vocational-technical education programs are based on what a
person performing a job actually does. V-TECS promotes the systematic development
and implementation of competency-based vocational-technical education through:

C      the analysis of jobs and organization of job-related information;

C      the development of vehicles for assessing student achievement; and

C      the design, development, and/or the identification of instructional materials that
       provide a validated link between instruction/training and employment.

                                                                                  PAGE 59
Since 1986, DACUM is a systematic process that enables its users to design academic
curricula or industrial training programs that are based on the realities of the workplace.
DACUM allows for movement from initial planning and needs assessment through
program design to instructional delivery quickly and cost efficiently and is adaptable to a
wide range of applications especially where economic and technological changes in the
workplace require curriculum or training program redesign. DACUM processes provide a
real-world base for instruction and learning and provide an effective forum for the
stakeholders in the education and training process to work closely together from design
through delivery.

MSDE officials believe that the new performance specifications enable educators to work
with employers to create flexible and dynamic programs that are responsive to economic
development needs. The new performance specifications emphasize technical and
academic preparation, as well as employability skills. They were established to
compliment curriculum development, instruction, and assessment strategies and will be
used to guide the development of curriculum, assessments, and instruction leading to the
issuance of skill certificates in Maryland’s Career Connections system.

A feasibility study will be conducted within the next year to determine how best to
implement skill certificates. Maryland’s portable credential system will not always be
occupation-specific but will be for an occupational area. Performance specifications have
been developed for 20 career majors that align with Maryland’s 9 career clusters and high
demand occupations. The MSDE is working closely with the Maryland State Department
of Labor, Licensing, and Regulation to improve the validity and reliability of the
assessments leading to State licensing/certification in Cosmetology, Geriatric Nursing
Assistant, and Heating/Ventilating/Air Conditioning.

We believe that Maryland has initiated actions necessary to ensure that individual skill
certificates will be issued to each student. Maryland’s Implementation Grant Application,
dated June 1995, page 20, Student Assessment, states in part,

        . . . Portable skill certificates will be issued that are benchmarked to high quality
       standards under the Maryland’s Goals 2000 plan and the voluntary national skill
       standards. . . .

However, Maryland officials have yet to initiate actions necessary to ensure that skill
certificates will be portable. Maryland officials are exploring two different methods for
assessing students’ competencies for a particular career cluster major to be reflected in the
skill certificates:

       Method 1

       The student’s portfolio at graduation could serve as a type of credential. The
       portfolio would include a copy of the student’s transcript, a resume, letters of

                                                                                   PAGE 60
       reference, and documentation demonstrating competency in areas covered by the
       performance specifications for the vocational program(s) of study. Many of
       Maryland’s students already graduate with career portfolios that document their
       accomplishments for presentation to employers and higher education
       representatives. By the year 2000, all students will be required to have career
       portfolios in Maryland.

       Method 2

       An assessment would be accomplished by means of standardized examination
       procedures authorized by the MSDE and administered by local schools.

As discussed in Finding No. 5 of Chapter 2 of Section I, we believe that the second
assessment method would result in more portable credentials that are commonly
recognized and accepted by employers and higher education institutions.

The probability of Career Connections continuing after the cessation of Federal funding
will be enhanced when the method for student assessment and the issuance of individual
student skill certificates has been finalized.




                                                                                PAGE 61
                CHAPTER 11 — PUBLIC MESSAGE/OUTREACH


Career Connections marketing is being performed through a variety of modes including a
Governor’s Proclamation, television, newspaper, events/conferences, and fact sheets.

The Maryland State Department of Education (MSDE), Division of Career Technology
and Adult Learning (DCTAL) prepared a “draft” marketing plan, dated July 1996. The
plan was designed to provide a flexible framework for targeting Career Connections
messages to key stakeholders throughout the State and to fit into an overarching strategy
for communicating Maryland’s school reform initiatives to the target audiences. The plan
included the following public outreach goals and messages:

C      Create a high level of public understanding of the need for a school-to-careers
       system for all Maryland students.

C      Obtain a high level of public support for a permanent, well-integrated
       school-to-careers system for all Maryland students - kindergarten through
       grade 16.

C      Develop among the target audiences (e.g., teachers, parents, employers, labor,
       students, administrators, school boards, community leaders, and elected officials)
       an understanding of how the School-to-Careers initiative fits into Maryland’s
       school reform goals.

C      School-to-Careers is for all students, including those planning to attend a 4-year
       college and beyond.

C      Career Connections prepares all students for post-secondary options/choices.

C      School-to-Careers is a partnership system, created, supported, and owned by all
       levels of education in the State, as well as business, industry, labor, government,
       and community leaders.

The marketing plan also stated the Career Connections State Management Team must
model the way for the Local Labor Market Teams (LLMTs) to achieve their goals and
effectively target their messages in order to develop an effective public outreach and
marketing campaign. The plan stated that the LLMTs should:

C      nurture and expand outreach partnerships by forming Outreach Committees and
       Speaker’s Bureaus that market to the local labor market as well as call on large
       employers;




                                                                                  PAGE 62
C      develop a media plan and a calendar of events that includes timed press releases
       and feature stories in major markets as well as small markets; and

C      create the tools that enable the local partnership to act, such as fact sheets,
       brochures, letterhead, newsletters, etc.

The MSDE Assistant Superintendent of Career Technology and Adult Learning stated
that the initial focus for involvement in Career Connections was parents and teachers.
An MSDE official added that a parent tool kit has been developed and the various local
Parent Teacher Associations (PTAs) have been provided with a glossary of terms and a
video on how the parents and local PTAs can get involved in Career Connections.

To ensure the continued involvement of stakeholders, an MSDE official stated that
marketing efforts included a three-fold chronological strategy: (1) awareness, (2) public
engagement, and (3) development of local partnerships.

To assist in the marketing of Career Connections, top State officials have made
appearances at the following activities:

C      In October 1995, the Governor spoke at the Career Connections Bidder’s
       Teleconference where the first round of LLMT implementation grants were
       announced. The Bidder’s Teleconference was aired via satellite through Maryland
       Public Television and videoconference locations were set up in various community
       colleges within Maryland.

C      On May 1, 1997, the Governor signed a Proclamation that declared May 1997 as
       Career Connections Month. The Proclamation statements are included within the
       Governance chapter (page 32).

C      On May 2, 1997, the Governor spoke to various stakeholders at the presentation
       event at John Hopkins University.

C      The MSDE Assistant Superintendent of Career Technology and Adult Learning
       promotes Career Connections at state-level PTA meetings held twice a year.

The Governor’s Public Information Officer also performed Career Connections marketing
from March through June 1996.

The Baltimore Sun published five Career Connections newspaper advertisements in
April and May 1997 that targeted various stakeholders, especially parents. In addition, a
Career Connections newspaper supplement, Choices Not Chances, was published in
April 1997 through The Baltimore Sun and distributed to all middle schools and high
schools in the State. The newspaper supplement was provided to English and Social
Studies classrooms where the instructors were provided regional training for the delivery

                                                                                    PAGE 63
of the message. The newspaper supplement was only available for classroom instruction.
Students were not allowed to take the newspaper supplement out of the classroom.

Several conferences and events held across the State promoted Career Connections.
Some included:

C      Public Outreach Statewide Meeting for Local Labor Market Teams (LLMTs) held
       in March 1996.

C      Career Connections Kick-Off Event with Miss Maryland in May 1996.

C      Public Outreach Meeting with LLMTs to discuss Public Outreach efforts in
       June 1996.

C      Check-signing event for implementation grant provided to Frederick County in
       August 1996.

C      Career Connections display at the Maryland State Fair in August 1996.

C      School-to-Careers Regional Workshops held in western Maryland, central
       Maryland, and the Eastern Shore in November 1996.

C      Statewide Public Outreach Meeting for LLMTs to share progress on development
       of outreach products for local use and local plans for Career Connections month
       (May 1997) in April 1997.

C      School-to-Careers Institute held at the Baltimore Convention Center from April 29
       through May 1, 1997.

Several fact sheets have also been developed for dissemination to interested stakeholders
that cover Career Connections, the Employer Incentive Fund, Local Labor Market Team
areas, and School-to-Careers in Maryland.

Maryland has generally taken actions necessary to ensure the initial and ongoing public
message/outreach efforts that promote the Career Connections message to the various
stakeholder groups with the exception of employers. The overall Career Connections
marketing strategy does not appear to have been firmly targeted towards employers.
(See Finding No. 6 in Chapter 2 of Section I.)




                                                                                PAGE 64
  APPENDIX A




 MSDE RESPONSE
TO DRAFT REPORT




                  PAGE 65
APPENDIX A




        PAGE 66
                                                                                     APPENDIX A

           Response to the Audit of Career Connections System
                             Sustainability
            School-to-Work Development/Implementation Grant



The Maryland State Department of Education (MSDE) concurs with the findings of the audit that
indicate that the Career Connections State Management Team and MSDE have initiated
numerous actions that, when fully implemented, should ensure the sustainability of the Career
Connections initiative in Maryland after the federal school-to-work funding ceases. The following
information is provided in response to the enhancements and recommendations resulting from the
audit.

A.     Finding 1: The MSDE Division of Career Technology and Adult Learning (DCTAL)
       organizational and function statements and MSDE DCTAL position descriptions do
       not emphasize Career Connections.

       Recommendation 1: Enhance the existing MSDE DCTAL organizational and
       function statements to incorporate an emphasis on the Career Connections intent
       and activities.

       MSDE Response: As MSDE DCTAL organizational and function statements are updated,
       they will be modified to emphasize Career Connections intent and activities.

       Recommendation 2: Establish MSDE DCTAL position descriptions that emphasize
       the successful implementation for the Career Connections initiative.

       MSDE Response: During the audit, only the job description of the Career Connections
       Branch Chief was reviewed. The MSDE employs several specialists whose primary
       responsibilities relate to Career Connections systems-building but whose job descriptions
       were not requested for review. To a large extent, the DCTAL staff has integrated the
       roles and responsibilities in their daily assignments in order to provide leadership to ensure
       the successful implementation of the Career Connections system. The MSDE is
       sequentially revising position descriptions for all staff. As these are revised, they will be
       modified to include appropriate staff responsibilities that directly relate to the successful
       implementation of the Career Connections system. All position descriptions will be
       revised by the end of the fiscal year.

B.     Finding 2: Career Connections officials do not have future funding plans for the
       collection of performance measures data of the continuation of the Employer
       Incentive Funds (ElF).



                                                                                          PAGE 67
                                                                             APPENDIX A

Recommendation 3: Establish formal plans to leverage funds from other available
resource streams for ensuring the continuation of the:

a)     collection of Career Connections performance measures data, and

b)     Employer Incentive Funds at both the state level and regional level to entice
       employer participation until the system sells itself to the employers.

MSDE Response: The MSDE and Career Connections State Management Team concur
that formal plans need to be developed to leverage funds from other available resource
streams to ensure the continuation of the:

a)     collection of Career Connections student performance measures data; and

b)     Employer Incentive Funds at both the state level and regional level to entice
       employer participation until the system is in place.

Career Connections Student Performance Measures Data: While some federal Career
Connections funding is being used to gather additional student performance measures
data for all students, the investment represents less than 10 percent of the investment
Maryland makes in the current system. Career Connections funds were used to
supplement the costs of collecting data on all students of the class of 1996 in order to
obtain baseline data against which to measure future progress against Maryland's
outcome measures. These funds were provided from existing local grants in order to
enable school systems to telephone survey graduates who did not respond to the mail
survey in order to get a high enough response rate to generalize findings to the entire
population.

The MSDE currently conducts one of the nation's most highly respected systems of
accountability for school performance which links directly to school reform. Maryland
issues annual school performance reports that are used locally for school improvement
planning. Career Connections local labor market teams already use the data available to
establish school improvement goals, objectives, strategies, milestones, and evaluation
targets. Career Connections performance measures will continue to be an integral part of
Maryland's accountability system. The MSDE is already pursuing alternate more cost-
effective strategies to collect student data using the unemployment insurance data base.
Should these prove to be viable, it would negate the need to identify other resources to
supplement the current data collection system. In addition, the Department will develop
plans to leverage other funding sources to maintain, if necessary, the current collection
methodology of appropriate student performance measures data after the federal school-
to-work funding ceases.



                                                                                   PAGE 68
                                                                                APPENDIX A

     Employer Incentive Funds: At the time of the audit, Maryland had only offered one round
     of EIF grants at the state level and most local labor market teams are just beginning to
     develop the requests for grant proposals (RFPs) to issue local EIF grants. As experience
     is gained on administering these grants and engaging employers, replicable models will be
     expanded throughout the state. Maryland recently issued the second round of state
     level grants requiring a 50 percent match and description of how projects will be
     sustained when federal funding ceases. Both rounds of grants have leveraged more than a
     50 percent match of Maryland's investment of Career Connections funds. These grants
     do not provide funds to cover the total costs of operating these projects, however, the
     MSDE concurs that plans need to be established to leverage funds from other available
     resource streams to ensure the continuation of the EIF funds when federal funding ceases.
     The MSDE, in conjunction with the Career Connections State Management Team, is
     beginning to formulate recommendations and formal plans to leverage other funds for this
     purpose.

C.   Finding 3: Student participation in Career Connections is not a graduation
     requirement.

     Recommendation 4: Emphasize student participation in all Career Connections
     components as a graduation prerequisite.

     MSDE Response: Maryland's local labor market teams are restructuring high schools and
     their feeder elementary and middle schools to integrate the components of the school-to-
     careers system in curriculum, instruction, and assessment (i.e. school-based learning,
     work-based learning, and connecting activities). As such, every student who attends
     these schools participates in Career Connections. The Maryland State Board of
     Education revised graduation requirements in 1992 to include a service learning
     requirement for every student prior to graduation. Service learning is an integral part of
     Career Connections continuum of work-based learning opportunities. Through service
     learning, students must reflect on their experiences in relation to their school-based
     learning. Connecting activities occur that engage students in their broader communities
     through their service learning experiences. Included in the Code of Maryland Regulations
     (COMAR) is a requirement that each local school system provide to students instruction
     in the World of Work in accordance with the declared competency index (DCI). In
     addition, all students in grades eight to twelve shall develop and update an individual
     career plan, participate in job interviews, and complete a qualifications brief or resume
     acceptable for seeking employment. Local labor market teams are aligning their course
     sequences along career cluster pathways to ensure that all students participate in school-
     to-careers activities. The MSDE will continue to examine ways in which the high school
     graduation requirements can be used as a means to strengthen the sustainability of the
     Maryland Career Connections system by emphasizing student participation in Career
     Connections. Past practice in Maryland has been to implement changes through local
     school improvement planning efforts linked to performance measures and standards rather

                                                                                     PAGE 69
                                                                                 APPENDIX A

     than through "top down" process mandates, legislation, or other state-imposed
     requirements.

D.   Finding 4: State certification requirements for teachers and guidance counselors
     lack mandatory Career Connections training.

     Recommendation 5: Incorporate Career Connections training as a mandatory
     requirement for State certification of teachers and guidance counselors.

     MSDE Response: Maryland administrators take a conservative approach to establishing
     mandatory requirements for State certification of teachers and guidance counselors. Once
     established, required courses or inservice workshops must be regularly and readily
     available to ensure that no teacher is denied certification or recertification based on the
     lack of availability of required or mandatory course work. Maryland hires a large
     percentage of its teachers from other states and these teachers with reciprocity would not
     be subject to this requirement if made mandatory. The MSDE staff and Career
     Connections State Management Team disagrees with this finding and recommendation.
     Overall, it is counter to the approach Maryland takes to teacher certification to establish
     mandatory Career Connections training as a requirement for State certification of teachers
     and guidance counselors. Establishing mandatory training for State certification of
     teachers and guidance counselors is not a specified requirement in the School-to-Work
     Opportunities Act. Maryland's approach will be to continue to provide numerous state
     and local school-to-careers institutes, blended instruction workshops, professional
     development school grants for pre-service teacher preparation, career development
     training, and worksite supervisor training. Inservice credit is available for many of these
     offerings that teachers can use toward their recertification or, in the case of professional
     development school, pre-service college credits are awarded to teacher candidates.
     Maryland will continue to offer inservice credits for teacher participation in Career
     Connections professional development opportunities and market these opportunities to
     teachers and administrators as effective approaches to improving student achievement.

E.   Finding 5: Skill certificates/portable credentials are not finalized.

     Recommendation 6: Develop and finalize a student skills assessment policy that
     promotes standardized examination procedures authorized by the MSDE and
     administered by local schools for all occupational areas in which individual skill
     certificates will be designed to ensure the portability of the skill certificates.

     MSDE Response: The MSDE and Career Connections State Management Team concurs
     with the finding that Maryland needs to develop and finalize a student skills assessment
     policy that promotes standardized examination procedures to ensure the portability of the
     skill certificates. Plans are already being formulated to move forward with the
     establishment of the student skills assessment policy in concert with Maryland's high

                                                                                       PAGE 70
                                                                                APPENDIX A

     school improvement initiative that will require students to pass high school assessments
     as a prerequisite to graduation.

F.   Finding 6: The overall Career Connections marketing strategy is not firmly targeted
     towards employers.

     Recommendation 7: Enhance the Career Connections marketing focus on informing
     and involving employers including mass mailings to the employers informing them
     about Career Connections and providing information on how to participate in
     Career Connections.

     MSDE Response: The MSDE and Career Connections State Management Team initially
     began to focus on informing employers about the school-to-careers system in Maryland
     through the Employer Incentive Fund activities and advertisements in The Baltimore Sun
     newspaper. There is a need to continue to focus on this area. As such, the MSDE, in
     cooperation with the Maryland State Chamber of Commerce and the Career Connections
     State Management Team, is conducting a mass mailing survey to a selected random
     sample of employers to inform them about Career Connections, assess their level of
     awareness of the school-to-careers system, and provide them with information on how to
     participate in Career Connections. The MSDE and Career Connections State
     Management Team concurs that there is an ongoing need to continue to focus on public
     outreach efforts that inform and involve employers in Career Connections system-
     building and sustainability.




                                                                                      PAGE 71
                    Office of Inspector General
                         Customer Survey

You can help us learn how to improve by providing feedback
on what we are doing well and how we can do our job better.

Report Name:        STW System Sustainability in Maryland                                      Not
                                                                                               At
Report Number:           05-98-001-03-385                           Extremely Quite Somewhat   All   N/A


Usefulness
1.    Overall, how helpful was the audit?

2.    How constructive were the auditors' recommendations in
      improving performance and resolving the cause of identified
      problems?

3     How feasible and cost effective were the auditors'
      recommendations?

4.    How timely was the report issued?

Responsiveness
1.    Generally, how responsive was the OIG in addressing
      management's concerns?


2.    How well did the audit report incorporate management's
      views and comments concerning findings, conclusions,
      recommendations, planned corrective actions, and noteworthy
      accomplishments?

3.    How timely were matters needing immediate action brought
      to management's attention before the issuance of the final
      report?

Communications
1.    During the audit, how well did the auditors communicate
      information relating to audit objectives, methodology and
      results?

2.    How courteous and professional were the auditors?


                                                                                               PAGE 72
Report Effectiveness
Please indicate how much you agree or disagree with each of the following statements:
                                                                         Agree      Agree    Disagree   Disagree
                                                                         Strongly   Mostly   Mostly     Strongly   N/A


1.      The report was easy to read and understand.

2.      The report was concise and to the point.

3.      The evidence presented in the report was accurate.

4.      The audit results were presented in an unbiased manner.

5.      The report contained all information needed to promote a
        proper understanding of matters reported.

6.      The report effectively communicated audit objectives, scope,
        and methodology.


Additional Comments:

Use this area to further describe or explain any of the responses above, any areas in which we may
improve or areas deserving praise. Use additional paper if necessary.




Other areas we should consider for audit:




Who may we contact to discuss your comments?

Name:                                         Telephone Number:



                                                                                                            PAGE 73
